<html>
<title> - H.R. 4330, THE ALL STUDENTS ACHIEVING THROUGH REFORM ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    H.R. 4330, THE ALL STUDENTS ACHIEVING THROUGH REFORM ACT OF 2009 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 24, 2010

                               __________

                           Serial No. 111-46

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-829 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director





























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 24, 2010................................     1

Statement of Members:
    Cassidy, Hon. Bill, a Representative in Congress from the 
      State of Louisiana.........................................     5
        Prepared statement of....................................     6
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware......................................     9
    Ehlers, Hon. Vernon J., a Representative in Congress from the 
      State of Michigan, prepared statement of...................    71
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado..........................................     7
        Prepared statement of....................................     8
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, submission for the record:
        Report, ``Choice Without Equity: Charter School 
          Segregation and the Need for Civil Rights Standards,'' 
          Internet address to....................................    54

Statement of Witnesses:
    Ahearn, Eileen M., Ph.D., project director, National 
      Association of State Directors of Special Education........    27
        Prepared statement of....................................    29
    Hehir, Thomas, Ed.D., professor, Harvard Graduate School of 
      Education..................................................    18
        Prepared statement of....................................    20
    Lake, Robin J., associate director, Center on Reinventing 
      Public Education...........................................    15
        Prepared statement of....................................    17
    Moskowitz, Eva, Ph.D., CEO and founder, Harlem Success 
      Academy....................................................    12
        Prepared statement of....................................    13
    Richmond, Greg, president and CEO, the National Association 
      of Charter School Authorizers..............................    23
        Prepared statement of....................................    25
    Young, Caprice, president and CEO, KC Distance Learning; 
      board chairman, National Alliance for Public Charter 
      Schools....................................................    30
        Prepared statement of....................................    32


    H.R. 4330, THE ALL STUDENTS ACHIEVING THROUGH REFORM ACT OF 2009

                              ----------                              


                      Wednesday, February 24, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Scott, Hinojosa, 
McCarthy, Tierney, Wu, Holt, Davis, Loebsack, Hirono, Altmire, 
Hare, Clarke, Shea-Porter, Polis, Sablan, Titus, Chu, Petri, 
Castle, Ehlers, Biggert, McMorris Rodgers, and Cassidy.
    Staff present: Tylease Alli, Hearing Clerk; Andra Belknap, 
Press Assistant; Calla Brown, Staff Assistant, Education; Jody 
Calemine, General Counsel; Jamie Fasteau, Senior Education 
Policy Advisor; Denise Forte, Director of Education Policy; 
David Hartzler, Systems Administrator; Fred Jones, Junior 
Legislative Associate, Education; Sharon Lewis, Senior 
Disability Policy Advisor; Sadie Marshall, Chief Clerk; Bryce 
McKibbon, Staff Assistant; Charmaine Mercer, Senior Education 
Policy Advisor; Alex Nock, Deputy Staff Director; Lillian Pace, 
Policy Advisor, Subcommittee on Early Childhood, Elementary and 
Secondary Education; Helen Pajcic, Education Policy Associate; 
Kristina Peterson, Legislative Fellow, Education; Rachel 
Racusen, Communications Director; Alexandria Ruiz, 
Administrative Assistant to Director of Education Policy; 
Melissa Salmanowitz, Press Secretary; Dray Thorne, Senior 
Systems Administrator; Daniel Weiss, Special Assistant to the 
Chairman; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; Kirk Boyle, Minority General 
Counsel; Casey Buboltz, Minority Coalitions and Member Services 
Coordinator; Alexa Marrero, Minority Communications Director; 
Susan Ross, Minority Director of Education and Human Services 
Policy; Mandy Schaumburg, Minority Education Policy Counsel; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairman Miller [presiding]. A quorum being present, the 
committee will come to order. I want to welcome all the members 
and welcome our witnesses today. Thank you for taking the time 
to join us and to give us the benefit of your expertise and 
experience.
    And I will recognize myself for an opening statement, and 
then recognize Mr. Cassidy, and then Mr. Kildee, and you have--
Mr. Castle, I guess, will be here by then, right? We hope.
    Today we will examine how charter schools can be used as a 
tool to drive innovation in our schools. Specifically, we will 
discuss legislation introduced by Rep. Polis that would expand 
access to outstanding charter schools.
    This hearing kicks off a larger conversation about how we 
can educate our way to a better economy, as Secretary Duncan 
says, by overhauling our nation's primary education law.
    Last week, Congressmen Kline, Kildee, Castle and I 
announced that we plan to do this overhaul in an inclusive and 
transparent way. We are starting by holding hearings and asking 
for input of all stakeholders who want to make meaningful 
improvements in the law.
    I strongly believe that the bipartisanship will be the key 
to getting this rewrite done. Our committee has a tradition of 
working across party lines when it comes to education.
    Nine years ago, we came together for the historic way to 
write the latest version of the law No Child Left Behind. No 
Child Left--No Child brought powerful reforms to our schools.
    We made clear then--we made it clear that it was time to 
end the inequities and low standards that had come to exemplify 
schools in this country. We made it impossible for schools to 
mask the fact that too many students were falling behind.
    This focus on transparency and accountability has forced us 
to acknowledge some hard truths. It has shown how far we have 
to go to get our schools and students where they need to be. 
But we also know that the law didn't get everything right.
    We all agree, along with teachers, parents, administrators 
and many others, that there needs to be significant changes. 
Now, with our economy in need of serious rebuilding, we cannot 
afford to wait to fix it.
    It is time to realize our vision of world-class schools 
that prepare every student to compete in our global economy. To 
get there, we need to be open to bold ideas to disrupt our 
current system.
    We have to pay attention to what is working in our schools 
and give other schools the tools to learn from those successes. 
Time and again, we have seen this approach work. Innovation and 
creativity lead to effective reforms. Effective reforms 
transform schools and communities.
    One of the best examples of high--is our high-performing 
charter schools. These schools are proving that low-income and 
minority students can succeed when given the right tools, 
challenges and learning environments.
    There are now more than 1.5 million children enrolled at 
nearly 5,000 public charters across the U.S. In some of these 
areas, students were stuck in struggling schools where 70 
percent of the students drop out. The opportunity promised by 
quality charter schools was their only chance at a better 
education.
    Take the Green Dot public schools. Green Dot schools serve 
students in the highest need in Los Angeles and South Bronx, 
where only about 4 percent of the kids graduate from college. 
Eighty percent of Green Dot students graduate, and 80 percent 
of their graduates are accepted to a 4-year college.
    Green Dot schools have their own teachers unions affiliated 
with the National Education Association and the American 
Federation of Teachers. Their job security is based not just on 
seniority, but how well they are teaching students. These 
partnerships show that teachers unions can help lead the way to 
building successful charter schools.
    Successful charter schools are also welcoming 
accountability and data. They value strong principals and 
teachers. They support longer school hours and more school days 
to help students catch up. They engage parents as active 
participants in their school communities.
    These are strategies that we should be paying attention to, 
not just as we think about how to improve charter schools, but 
how to improve all schools. President Obama and Secretary 
Duncan recognize this. Their Race to the Top initiative 
prioritizes the funding for states that allow more charter 
schools.
    As a result, Illinois, Louisiana, Tennessee and California 
have already changed their laws to be eligible. Another six 
states also advanced their policies to strengthen charter 
schools. We should do everything we can to support these 
efforts.
    Now, for all that the charter schools are doing outstanding 
things, there are also charters that aren't serving students 
well and need of the charter schools--now, for all to be shut 
down. Charter schools are not a silver bullet to fixing our 
schools.
    But I think one of our witnesses in a recent hearing, 
Colorado's lieutenant governor Barbara O'Brien, put it best 
when she said that charter schools are research and development 
arms of education.
    If our goal is to build world-class schools, we absolutely 
need to look at high-performing charter schools for research 
and development to replicate what they are getting right. That 
is what Representative Polis' bill, the All Students Achieving 
Through Reform Act, aims to do.
    It would bring to scale what is working in charter schools 
and improve the quality of existing schools. It would allow 
existing schools to apply for grants to help with 
transportation and hire additional staff.
    The bill would also create a new competitive grant program 
for states and districts that want to expand quality charter 
schools in high-need areas.
    I would like to thank Representative Polis, who founded two 
charter schools in Colorado, for introducing this bill.
    I would also like to thank our witnesses for joining us 
today. This is one of the--one of many--this and many other 
discussions to come where we will discuss these issues raised 
here this morning and others and how we can improve No Child 
Left Behind.
    With that, I would now like to recognize Mr. Cassidy.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good morning.
    Today we will examine how charter schools can be used as a tool to 
drive innovation in our schools. Specifically, we will discuss 
legislation introduced by Rep. Polis that would expand access to 
outstanding charter schools.
    This hearing kicks off a larger conversation about how we can 
``educate our way to a better economy''--as Secretary Duncan says--by 
overhauling our nation's primary education law. Last week, Congressmen 
Kline, Kildee, Castle and I announced that we plan to do this overhaul 
in an inclusive and transparent way.
    We are starting by holding hearings and asking for input from all 
stakeholders who want to make meaningful improvements to the law. I 
strongly believe that bipartisanship will be the key to getting this 
rewrite done. Our committee has a tradition of working across party 
lines when it comes to education. Nine years ago, we came together in a 
historic way to write the latest version of this law: No Child Left 
Behind. No Child brought powerful reforms to our schools. We made clear 
that it was time to end the inequities and low standards that had come 
to exemplify schools in our country.
    We made it impossible for schools to mask the fact that too many 
students were falling behind. This focus on transparency and 
accountability has forced us to acknowledge some hard truths. It's 
shown us how far we have to go to get our schools and students where 
they need to be. But we also know the law didn't get everything right. 
We all agree, along with teachers, parents, administrators and many 
others, that it needs significant changes. Now, with our economy in 
need of serious rebuilding, we cannot afford to wait to fix it. It's 
time to realize our vision for world-class schools that prepare every 
student to compete in our global economy. To get there, we need to be 
open to bold ideas that ``disrupt'' our current system. We have to pay 
attention to what is working in our schools and give other schools the 
tools to learn from their successes. Time and again, we have seen this 
approach work. Innovation and creativity lead to effective reforms. 
Effective reforms transform schools and communities. One of the best 
examples of this is our high-performing charter schools. These schools 
are proving that the low-income and minority students can succeed when 
given the right tools, challenges and learning environments.
    There are now more than 1.5 million children enrolled at nearly 
5,000 public charter schools across the U.S. In some of these areas, 
students were stuck in struggling schools where 70 percent of students 
drop out. The opportunity promised by a quality charter school was 
their only chance at a better education. Take the Green Dot Public 
Charter schools. Green Dot schools serve students with the highest need 
in Los Angeles and the South Bronx, areas where only about 4 percent of 
kids graduate from college.
    Eighty percent of Green Dot students graduate and 80 percent of 
their graduates are accepted to four-year colleges. Green Dot schools 
also have their own teachers unions affiliated with the National 
Education Association and the American Federation of Teachers.
    Their job security is based not just on seniority, but on how well 
they are teaching students.
    These partnerships show that teachers unions can help lead the way 
in building successful charter schools. Successful charter schools are 
also welcoming accountability and data. They value strong principals 
and teachers. They support longer school hours and more school days to 
help students catch up. They engage parents as active participants in 
their school communities. These are strategies that we should be paying 
attention to, not just as we think about how to improve charter 
schools--but how to improve all schools. President Obama and Secretary 
Duncan recognize this. Their Race to the Top initiative prioritizes 
funding for states that allow more charter schools. As a result, 
Illinois, Louisiana, Tennessee and California have already changed 
their laws to be eligible. Another six states have also advanced their 
policies to strengthen charter schools. We should do everything we can 
to support these efforts. Now, for all the charter schools that are 
doing outstanding things, there are also charters that aren't serving 
their students well and need to be shut down. Charter schools are not a 
silver bullet for fixing our schools.
    But I think one of our witnesses at a recent hearing, Colorado's 
Lieutenant Governor Barbara O'Brien, put it best when she said 
``Charter schools are the research and development arm of education.''
    If our goal is to build world-class schools, we absolutely need to 
look at high-performing charter schools for research and development--
and replicate what they are getting right.
    That's what Rep. Polis' bill, the All Students Achieving through 
Reform Act, aims to do.
    It would bring to scale what is working in charter schools and 
improve the quality of existing schools.
    It would allow existing schools to apply for grants to help with 
transportation and hire additional staff.
    The bill would also create a new competitive grant program for 
states and districts that want to expand quality charter schools in 
high-need areas. I'd like to thank Rep. Polis, who founded two charter 
schools in Colorado, for introducing this bill.
    I'd also like to thank all of our witnesses for joining us today. 
On this and many other discussions to come, I look forward to working 
with all members of our committee to fulfill the promise of an 
excellent education for every student.
                                 ______
                                 
    Mr. Cassidy. Thank you, Chairman Miller.
    And let me begin by welcoming our distinguished panel of 
witnesses. We are here this morning to talk about proposals to 
expand high-quality charter schools, expand access, a cause 
that Republicans have long embraced and we are pleased to see 
has drawn increasing support on the other side of the aisle.
    The nation's first charter school law was passed almost 20 
years ago, and since that time they have taken root firmly in 
our educational system, providing parents with a choice and 
communities with the innovation and competition necessary to 
begin transforming their schools.
    Charter schools are the epitome of performance-based 
education. In exchange for flexibility and autonomy, they are 
held accountable for producing results. And if they fail to 
meet accountability standards or attract enough students, their 
charters can be revoked.
    As it turns out, attracting students for charter schools 
has not been a problem. In 2009 an estimated 365,000 students 
were on charter school waiting lists, enough to fill more than 
1,100 new average-size charter schools. In fact, more than half 
of all charter schools nationwide have a waiting list.
    Although charter schools are public, they do face 
significant disadvantages compared to traditional public 
schools. Charter schools generally do not receive facilities 
funding, nor can they raise funds through local taxes.
    Twenty-six states and the District of Columbia have caps 
that limit charter school growth. And while the teachers at 
many charter schools have chosen to remain independent, there 
is a growing movement among labor leaders to organize these 
schools and impose rigid collective bargaining agreements that 
prevent creative instructional approaches such as longer school 
days, years or weekend learning opportunities.
    As states and local communities keep working to improve 
opportunities for their students, we need to ensure federal 
policy keeps pace with and does not get in the way of local 
innovation.
    The bill we are discussing today is one of several 
promising ideas to expand access to quality charter schools by 
allowing new schools to be established under an existing 
charter. Other opportunities include eliminating state charter 
school enrollment and growth caps and improving access to 
facilities funding.
    As with all federal programs designed to foster local 
innovation, we must be careful not to tie the hands of 
educators on the front lines. Too many federal mandates can 
undermine the flexibility and autonomy that make charter 
schools so successful.
    At the same time, we must not dilute the value of charter 
schools or the funding they receive by broadening the 
definition in a way that allows schools without true autonomy 
to absorb limited resources or cloud this unique subset of the 
public school system.
    This morning's hearing is a welcome display of 
bipartisanship on the broad issue of expanding access to high-
quality charter schools, and I look forward to hearing from our 
witnesses on how to make that goal a reality.
    Thank you, and I yield back.
    [The statement of Mr. Cassidy follows:]

 Prepared Statement of Hon. Bill Cassidy, a Representative in Congress 
                      From the State of Louisiana

    Thank you Chairman Miller, and let me begin by welcoming our 
distinguished panel of witnesses. We're here this morning to talk about 
proposals to expand access to high-quality charter schools--a cause 
we've long embraced on this side of the aisle, and one that is drawing 
increasing support on the other side.
    The nation's first charter school law was passed almost 20 years 
ago. Since that time, charter schools have firmly taken root in our 
educational system, providing parents with a choice and communities 
with the innovation and competition necessary to begin transforming 
their schools.
    Charter schools are the epitome of performance-based education: In 
exchange for flexibility and autonomy, they are held accountable for 
producing results. If they fail to meet accountability standards or 
attract enough students, their charters can be revoked.
    As it turns out, attracting students has not been a problem for 
quality public charter schools. In 2009, an estimated 365,000 students 
were on charter school waiting lists--enough to fill more than 1,100 
new, average-sized charter schools. In fact, more than half of all 
charter schools nationwide have a waiting list.
    Although charter schools are public, they face significant 
disadvantages compared to traditional public schools. Charter schools 
generally do not receive facilities funding, nor can they raise funds 
through local tax levies. Twenty-six states and the District of 
Columbia have caps that limit charter school growth.
    And while the teachers at many charter schools have chosen to 
remain independent, there is a growing movement among labor leaders to 
organize these schools and impose rigid collective bargaining 
agreements that prevent creative instructional approaches such as 
longer school days and years or weekend learning opportunities.
    As states and local communities keep working to improve 
opportunities for their students, we need to ensure federal policy 
keeps pace with--and does not get in the way of--local innovation. The 
bill we're discussing today is one of several promising ideas to expand 
access to quality charter schools by allowing new schools to be 
established under an existing charter. Other opportunities include 
eliminating state charter school enrollment and growth caps and 
improving access to facilities funding.
    As with all federal programs designed to foster local innovation, 
we must be careful not to tie the hands of educators on the front 
lines. Too many federal mandates could undermine the flexibility and 
autonomy that make charter schools so successful.
    At the same time, we must not dilute the value of charter schools 
or the funding they receive by broadening the definition in a way that 
allows schools without true autonomy to absorb their limited resources 
or cloud this unique subset of the public school system.
    This morning's hearing is a welcome display of bipartisanship on 
the broad issue of expanding access to high-quality charter schools, 
and I look forward to hearing from our witnesses on how to make that 
goal a reality. Thank you, and I yield back.
                                 ______
                                 
    Chairman Miller. Thank you.
    I now yield to Congressman Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    I also want to thank our distinguished witness panel for 
their participation today. I hope your insights--and I expect 
they will--bring us closer to our goal of providing a high 
quality of education for all students.
    While the American education system is one of the better in 
the world, the status quo is no longer acceptable. Higher 
standards and better assessments will help, but we must push 
the envelope with innovative strategies for reform.
    Charter schools certainly hold promise, but only if federal 
and state governments do a better job of requiring quality. I 
watched a number of charter schools divert resources from the 
traditional public school system only to finish the school year 
with students farther behind.
    Innovation cannot occur without proper oversight. And I 
will push for policies that hold these schools accountable for 
performance.
    I am also concerned that these schools all too often fail 
to serve a representative sample of the student population. As 
we explore strategies for comprehensive school reform, we 
should never lose sight of our commitment to equal access for 
all students.
    I hope we have the opportunity to discuss these important 
issues today so we can move forward with solutions acceptable 
to all. I want to thank the chairman for calling today's 
hearing.
    And I now, Mr. Chairman, wish to yield my remaining time to 
my colleague, Representative Polis. As the author of the 
legislation we will discuss today and a former charter school 
superintendent, he is a real leader on this issue, and I am 
confident that he will work hard to make sure we get this 
right.
    I yield to Representative Polis.
    Mr. Polis. Thank you, Mr. Kildee, for yielding your time.
    Chairman Miller. [OFF MIKE]
    Mr. Polis. What is that?
    Chairman Miller. [OFF MIKE]
    Mr. Polis. Thank you, Chairman Miller, for launching our 
committee's bipartisan efforts to reform our federal education 
laws.
    I would also like to thank my colleagues on the other side 
of the aisle.
    As we begin to rewrite No Child Left Behind, we renew our 
commitment to closing the achievement gap and ensuring that 
each and every child, regardless of economic or ethnic 
background, receives a quality education and the opportunity to 
succeed.
    Seeing the positive impact of excellent charter schools in 
neighborhoods across 40 states and the District of Columbia, 
parents want more access to excellent charter schools. But 
sadly, the demand far exceeds the available seats.
    About 365,000 students nationally are on public charter 
school waiting lists, including 38,000 in my home state of 
Colorado.
    To address this problem and expand access to hope and 
opportunity, I introduced the All Students Achieving Through 
Reform, or All-STAR, Act which enables successful public 
charter schools that get the job done to expand and replicate. 
All-STAR allows more at-risk students to attend a great school 
and realize their full potential.
    I know that there are those who wish that charter schools 
didn't exist and others who would like to see every public 
school converted into a charter school. This bill embraces the 
pragmatic common ground.
    The public charter schools are an asset to our education 
system, but only if they do what they are supposed to do, 
expand hope and educational opportunity to those students and 
families who need it the most.
    We will hear today about the need for charter schools to 
improve their performance to better meet the special education 
needs of all students.
    We will hear about the need for quality authorizers to 
intervene or close bad charter schools and ensure a fair 
authorizing process.
    We will hear about how many superintendents and teachers 
see charter schools as a powerful tool in a portfolio 
management approach to district governance.
    The All-STAR bill is a catalyst, a catalyst for allowing 
disadvantaged kids to have a transformative life experience at 
a high-quality public school.
    As we already recognize through Title 5 funding dating to 
the Clinton administration, the federal government has a 
critical role in helping new and innovative charter schools get 
off the ground.
    Serving as laboratories of educational innovation, charter 
schools have pioneered some of the most promising and 
influential reform strategies. This bill creates a separate and 
distinct allocation for the expansion and replication of 
successful charter schools.
    What is indisputable is that successful innovations have 
led to outstanding results. Schools like KIPP, Harlem Success 
Academy and Ricardo Flores Magon in my district are defying the 
odds and stand quietly as the most powerful testimony in 
refutation of those who believe but dare not say that these 
children can't learn.
    All-STAR schools around the country run by innovators who 
succeeded where others have failed are the types of schools we 
must invest in to serve more kids. They can transform the lives 
of families, break the vicious cycle of poverty and ignorance 
and replace it with a virtuous cycle of enlightenment and 
prosperity.
    That is why I have introduced this bill, and that is why I 
am proud to invite my colleagues today to join us in learning 
from our panel about the opportunities and challenges in the 
public charter school movement.
    I yield back.
    [The statement of Mr. Polis follows:]

 Prepared Statement of Hon. Jared Polis, a Representative in Congress 
                       From the State of Colorado

    Thank you Chairman Miller for launching the Committee's bipartisan 
efforts to reform our nation's federal education laws and for your 
leadership on serving the needs of all students.
    I would also like to thank my colleague on the other side of the 
aisle, Mr. Ehlers of Michigan, for his support of this legislation and 
for his dedication to improving our public schools.
    As we begin to rewrite No Child Left Behind, we renew our 
commitment to closing the achievement gap and ensuring that each and 
every child, regardless of economic or ethnic background, receives a 
quality education and the opportunity to succeed.
    At the committee's June hearing on charter schools, we heard how 
top-performing charter schools with a rigorous curriculum and high 
expectations, are turning around student achievement and providing a 
world-class education to at-risk students.
    Seeing the impact of such schools in neighborhoods across 40 states 
and the District of Columbia, parents want more access to excellent 
charter schools but sadly the demand far exceeds the available seats. 
About 365,000 students are on public charter school waiting lists 
nationwide, including 38,000 in Colorado.
    To address this problem and expand access to hope and opportunity, 
I introduced the All Students Achieving through Reform (All-STAR) Act, 
which enables successful public charter schools that get the job done 
to expand and replicate. By building on what we know works, All-STAR 
allows more at-risk students to attend a great school and realize their 
full potential.
    I know that there are those who wish that charter schools didn't 
exist, and others who would like to see every public school converted 
to a charter school. This bill embraces the pragmatic common ground 
that public charter schools are an asset to our education system, but 
only if they do what they were supposed to do: expand hope and 
educational opportunity to those students that need it the most.
    We will hear today about the need for charter schools to improve 
their performance to better meet the special education needs of all 
students. We will hear about the need for quality authorizers to 
intervene or close bad charter schools and ensure a fair authorizing 
process. We will hear how many superintendents and teachers see charter 
schools as a powerful tool in a portfolio management approach to 
district governance.
    The All-STAR bill is a catalyst, a catalyst for allowing 
disadvantaged kids to have a transformative life experience at a high-
quality public school. It is a catalyst for states to embrace good 
policies that promote quality charter growth while strengthening 
accountability and oversight. A catalyst to promote best practices 
among authorizers and making sure that charter schools successfully 
serve the needs of students with disabilities and English language 
learners. And a catalyst for proven models to disseminate throughout 
our schools, both traditional and charters.
    As already recognized through Title V funding, dating to the 
Clinton administration, the federal government has a critical role in 
helping new and innovative charter schools get off the ground. Serving 
as laboratories of educational innovation, charter schools have 
pioneered some of the most promising and influential reform strategies, 
such as extended learning time, principal autonomy, data-driven 
research and instruction, and a laser focus on results.
    This bill creates a separate and distinct allocation for the other 
major benefit of charter schools. Yes, charter schools cause innovation 
to occur and challenge the forces of the status quo to embrace the hard 
work of improvement, but so too the best charter schools represent a 
part of the solution. Part of the solution for what we all came here 
for, why we serve in this Congress, on this committee. Data is a funny 
thing, we all try to use it for political advantage. There are studies 
that show that charter schools are ``better'' and ``more diverse'' than 
other public schools, and studies that show that charters are worse or 
less diverse than other public schools.
    What is indisputable, however, is that successful innovations have 
led to outstanding results. Schools like KIPP, Harlem Success Academy, 
and Ricardo Flores Magon in my district are defying the odds and stand 
quietly as the most powerful testimony in refutation of those who 
believe but dare not say that ``these children can't learn.''
    The Ricardo Flores Magon Academy in Westminster, Colorado, prepares 
kindergarten through eighth grade students for success in school, 
college and beyond. The school has a longer school day with five hours 
of core subject instruction each day and an extended school year, and 
provides for summer enrichment programs and need-based tutoring, as 
well as one-to-one and cohort interventions. All students have daily 
tennis and chess lessons and all teaching staff undergoes three weeks 
of intensive prior to the start of every school year.
    Its student population reflects the community: 93% Free/Reduced 
Lunch; 90% Latino; and 80% English Language Learners. But its students' 
outcomes do not reflect those characteristics. 93% of 3rd graders 
scored proficient or advanced in reading, compared to 73% for Colorado. 
And each and every student--100% of 3rd graders--scored proficient or 
advanced in math, compared to 69% for Colorado.
    It is All-STAR schools like these around the country, run by 
innovators who have succeeded where others have failed, we must invest 
in so they can serve more kids, can transform the lives of more 
families, can break the vicious cycle of poverty and ignorance and 
replace it with a virtuous cycle of enlightenment and prosperity. 
That's why I introduced this bill. And that's why I am proud to invite 
my colleagues today to join us in learning from our panel about the 
opportunities, fairness issues, and challenges in the public charter 
school movement.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Castle?
    Mr. Castle. Thank you, Chairman Miller, for holding today's 
hearing.
    And I thank all of the witnesses and all of you who are 
interested in this issue for being here.
    As you all know, the Elementary and Secondary Education 
Act, which includes the public charter schools program, is up 
for reauthorization.
    And with more than 1.4 million students attending over 
4,600 charter schools in 40 states and the District of 
Columbia, I welcome the opportunity to work in a bipartisan 
manner to explore legislation aimed at supporting effective 
charter schools.
    Charter schools are an important part of education reform 
efforts to improve our nation's public school system. Charter 
schools offer choices to parents and children who, in many 
instances, would otherwise be trapped in chronically 
underperforming public schools.
    Charter schools also tackle a variety of educational 
challenges unique to urban, rural and suburban areas.
    In outlining their plan for education reform, President 
Obama and his administration have expressed their support for 
expanding effective charter schools. The administration has 
also called on states to lift caps on the amount of charter 
schools they have.
    In 2009, an estimated 365,000 students were on charter 
schools' wait lists across the country, enough to fill over 
1,100 new average-size charter schools.
    I agree that one way to meet this demand is for states to 
reform or reconsider their caps on charter schools while 
continuing to utilize appropriate measures to ensure that new 
charter schools are of high quality.
    Another thing we can do is look to reform the current 
charter school program to allow for high-quality schools to 
replicate their services in these communities to meet this 
demand.
    Like traditional elementary and secondary schools, however, 
charter schools vary greatly in quality. And I am pleased to 
explore through this hearing and further discussions the role 
of the federal government in supporting high-performing charter 
schools as well as addressing the issue of charter schools that 
are failing our students.
    With the reauthorization of the Elementary and Secondary 
Education Act pending, Congress has the opportunity to enhance 
charter school programs and help increase the number of high-
quality public charter schools where they are most needed, in 
areas where students are trapped in underperforming schools and 
who are still today left behind.
    With that, I look forward to hearing from today's panel.
    Thank you, Chairman Miller, and I yield back.
    Chairman Miller. Thank you.
    Again, let me just say that pursuant to Rule 7(c), all 
members may submit opening statements in writing which will be 
made part of the permanent record.
    And before I introduce our panel, let me inform the panel 
that we operate under the 5-minute rule here. When you begin to 
speak, in those little boxes in front of you a green light will 
go on. You will have 5 minutes. With 1 minute remaining, an 
orange light will go on, so you can think about how you want to 
summarize.
    And then a red light goes on and we finish--if you would 
finish at that point, but obviously finish so you appear to be 
coherent and--you know, and the rest of--you get your thoughts 
out the way you want.
    I think we have got a great panel this morning. Our first 
witness will be Dr. Eva Moskowitz, who is the founder and CEO 
of Success Charter Network in New York City.
    Dr. Moskowitz runs the famed Harlem Success Academies, 
which are some of the top performing public schools in the 
state. She plans to replicate this successful school model 
across the city, ultimately opening 40 charter schools in New 
York City.
    Dr. Moskowitz has put the charter school concept into 
action, and we look forward to learning from her expertise.
    Robin Lake is the associate director of the Center for 
Reinventing Public Education at the University of Washington 
where she directs the National Charter School Research Project 
and co-directs the Inside Charter Schools project.
    Mrs. Lake focuses on the role of charter schools in driving 
innovation and district-wide reform. She has authored numerous 
studies on public charter policy, development and reform 
strategy. Mrs. Lake will discuss the role charter schools play 
in district reform and driving innovation.
    Greg Richmond is the president of the National Association 
of Charter School Authorizers. Mr. Richmond served in the 
Chicago public schools for over a decade, making it the first 
urban school district to request charter schools, and worked 
under Arne Duncan in the district as the district's chief 
officer of new school development.
    Mr. Richmond will discuss how to build strong charter law 
and policy that both supports charter schools and holds them 
accountable.
    Dr. Thomas Hehir is the director of the Harvard Graduate 
School of Education Leadership program. Dr. Hehir served as 
director of the U.S. Department of Education's Office of 
Special Education Programs under President Clinton.
    Dr. Hehir has devoted himself to the education of students 
with disability. He works tirelessly to improve the research, 
access and services for students with disabilities in charter 
schools.
    Dr. Hehir is an expert on how to increase quality and 
access for students with disabilities who are in special need 
of educational choice.
    Eileen Ahearn is the senior policy analyst for the National 
Association of State Directors of Special Education. Dr. Ahearn 
has extensive experience both in the classroom and in research 
into special education issues.
    Dr. Ahearn will discuss the relationship between special 
education and charter schools at the policy level and in the 
classroom.
    Caprice Young is the president and CEO of KC Distance 
Learning. Dr. Young also served as the board chair of the 
National Alliance of Public Charter Schools.
    Dr. Young was president of the Los Angeles Unified School 
District Board of Education where she played an integral role 
in focusing charter school movement on student achievement, 
community involvement, teacher quality and effective 
management.
    Dr. Young will discuss charter school policy that enables 
growth of high-quality programs while still holding charter 
schools accountable on students and the communities that they 
serve.
    Welcome to the committee.
    Dr. Moskowitz, we begin with you.
    I will have to express a conflict of interest here. I 
visited Dr. Moskowitz' schools a couple of years ago and was 
deeply impressed.
    But go ahead.

  STATEMENT OF EVA MOSKOWITZ, PH.D., CEO AND FOUNDER, HARLEM 
                        SUCCESS ACADEMY

    Ms. Moskowitz. Thank you very much, Chairman Miller, for 
holding this hearing and members of the committee.
    As a former civics teacher--and some of you are--remember 
that there used to be civics in the public school system--it is 
an incredible honor to be in these chambers. So thank you for 
having me.
    My name, again, is Eva Moskowitz, and I am the founder of 
Success Charter Network. We have four high-performing schools. 
We are opening three more this summer. And our aspiration is 
not only to create 40 phenomenal schools and educate the kids 
within our four walls exceptionally well, but to change the 
rules of the game so that children outside of our four walls 
can get the education that they deserve and are entitled to.
    Our nation, as you well know, has lost much of its 
competitive edge because our education system, particularly the 
K through 12 education system, is not what it needs to be, 
despite a half century of incredible increases in spending. 
That is the bad news.
    The good news is that we now have proof points across this 
nation of what works. Congressman Polis referred to that in his 
opening statement. We now know that there are a lot of great 
schools.
    And even more importantly for the purposes of this hearing, 
we know that there are charter leaders who have not just done 
it once but have done it over and over again. And so the time 
is ripe to really think through replication and how more 
children can take advantage of what is clearly good school 
design.
    So we have the suppliers, and we certainly have the demand. 
We had 5,000 parents at our lottery for Harlem Success Academy 
for 475 spots. The people have spoken. They want excellent 
education.
    Parents are voting with their feet, not only in New York 
City but across this nation. Therefore, the time is now for the 
federal government to play an important role in reversing our 
nation's educational decline by investing in high-performing 
charter replicators.
    We need a high-occupancy vehicle lane for those folks who 
have proven that they can get the job done.
    There is an anecdote about General Grant that you may have 
heard. Someone told President Lincoln that Grant was a drunk. 
Lincoln's response was that someone should find out what brand 
of whisky Grant was drinking and send a case of it to all of 
his generals. Lincoln's point was when someone is doing 
something right, you shouldn't micro-manage them.
    I would argue that the federal government has a critical 
role to play in supporting fast and smart growth of proven 
success. And that is what Congressman Polis' bill does so well.
    To do successfully, the federal government must protect the 
single greatest ingredient of success, and that is autonomy. 
The whole concept of charters, as was mentioned before, was in 
exchange for high performance, the operator gets freedom.
    I would argue that that is our secret sauce at Harlem 
Success. How come kids, I am asked all the time, who are in a 
Title 1 school with 18 percent special ed have outperformed 
affluent neighborhoods in New York City and around the state?
    If I may brag for a moment, we ranked 32 out of 3,500 
schools statewide. We outperformed our school district by 20 
percent in math, 40 percent in reading. Nearly three-quarters 
of our children scored at the highest level, which is a four, 
compared to one-quarter in the school district.
    Our Harlem children outperformed those in Scarsdale, one of 
the wealthiest communities in this country. How is that 
possible? The answer is freedom.
    We have the freedom to get it right, the freedom to correct 
in real time the stuff we get wrong, the freedom to innovate, 
the freedom to work longer and harder, the freedom to organize 
our schools around children and teaching rather than the 
economic interests of grownups. Without this freedom, you would 
get the same results that the school districts get.
    At Success Academy we have the freedom to invest in 
teaching and school leadership talent, so we pay more than the 
local teachers contract.
    How do we afford this even though our per pupil is less? 
Well, we choose to have larger class sizes so we can pay our 
teachers more, and we don't rely on a Soviet-style procurement 
system of the district. Like many Americans, we go to Costco 
and Kmart and Target to buy our supplies.
    We have the freedom to make science a non-second-class 
subject by teaching it 5 days a week starting in kindergarten.
    We have the freedom to use technology in really smart ways, 
not only to improve student learning but, more importantly, to 
improve teaching. We have emphasized technology way too much on 
the student end and not enough on the teaching end.
    At Success Academy we organize our resources both in terms 
of time and money around helping teachers get better.
    I understand my time is running out, so I will cut to the 
chase. We are succeeding because of this freedom. But while 
there are these proof points of success, I have to run back to 
New York to a hearing because there are forces trying to stop 
replication.
    Whether it is KIPP, or Achievement First, or Harlem Success 
Academies, these great proof points are being resisted by the 
forces of the status quo.
    And I would urge you, Chairman Miller, to be bold, as I 
know you have, so that we can give so many more children an 
opportunity to learn at an unbelievably high level. Thank you 
so very much.
    [The statement of Ms. Moskowitz follows:]

      Prepared Statement of Eva Moskowitz, Ph.D., CEO and Founder,
                         Harlem Success Academy

    Good morning Chairman Miller and the members of the House Committee 
on Education and Labor.
    It is a great honor to be here. As a former civics teacher (yes, 
there used to be such teachers) I consider it a privilege to be in this 
hallowed chamber. Thank you for considering my thoughts and views.
    My name is Eva Moskowitz. I am the founder of Success Charter 
Network. We run four, soon to be seven, high-performing public charter 
schools. Our goal is to open up and manage 40 schools of phenomenal 
quality. We want to replicate our extraordinary success not only so 
that we can educate the kids within our four walls exceptionally well 
but so that we can pave the way for much more fundamental, systemic 
educational change and improvement.
    Our nation has lost much of its competitive edge because while we 
have dramatically increased educational spending over last quarter 
century, we have failed to fundamentally alter student outcomes.
    The good news is that we now have in locations across this country 
clear proof points of what works. While not all charters are high 
performing, there is a subset of charter leaders who have not only one 
great school but have replicated that success at multiple schools.
    So we have suppliers. And we certainly have demand. In New York 
City, 5000 parents came out to win a spot in one of the Harlem Success 
Academies. Parents are voting with their feet, demanding excellent 
schools.
    The time is therefore now for the federal government to play an 
important role in reversing our nation's educational decline by 
investing in high performing charter replicators. We need a high 
occupancy vehicle lane for our most successful charter leaders.
    There's an anecdote about General Grant you may have heard. Someone 
told President Lincoln than Grant was a drunk. Lincoln's response was 
that someone should find out what brand of whisky Grant was drinking 
and send a case of it to all of his Generals. Lincoln's point was that 
when someone is doing something right, you shouldn't micromanage them.
    I would argue that the federal government has a critical role to 
play in supporting fast and smart growth of proven success.
    To do so successfully, the federal government must protect the 
single greatest ingredient of success: autonomy. The whole concept of 
charters is that it is a compact between the state and the operator to 
deliver student achievement results in exchange for freedom.
    I get asked all the time what is the secret sauce? How come your 
kids who are in a Title I school have outperformed affluent 
neighborhoods in New York City and around the state on state tests? Our 
school was ranked 32 out of 3500 schools statewide. We outperformed our 
school district by 20% in math and by 39% in reading. Nearly three 
quarters of our children are ``advanced proficient'' in math, compared 
with roughly one quarter in our school district. Our Harlem children 
outperformed those in Scarsdale--one of the wealthiest communities in 
this country.
    How is it possible?
    The answer is freedom. We have the freedom to get it right. The 
freedom to correct in real time when we get stuff wrong. The freedom to 
innovate. The freedom to work longer and harder. The freedom to 
organize our schools around children and teaching rather than the 
economic interests of grownups. Without this freedom, you would get the 
same results district schools get.
    At Success Academies we have the freedom to invest in teaching and 
school leadership talent so we pay more than the local teachers 
contract. How do we afford this even though we get less per pupil than 
the district? Well, we choose to have larger class sizes so we can pay 
our teachers more and we don't rely on the Soviet-style procurement 
system of the district. Like many Americans, we go to Costco and Kmart 
and Target to buy our supplies.
    We have the freedom to make science a non-second class subject by 
teaching it five days a week starting in kindergarten. We have the 
freedom to use technology in really smart ways, not only to improve 
student learning but perhaps even more importantly to improve teaching. 
At Success Academies we organize our resources both in terms of money 
and time around helping teachers get better. So much so that we are 
simultaneously running a school for kids and a school of education. But 
to do so requires freedom. Most district contracts only allow teachers 
to come in a few days before school starts. Our faculty spend 8 weeks a 
year getting training.
    But while we are succeeding because we have this freedom, it needs 
to be constantly protected because the forces against reform get that 
this is the secret to our success. In our state capital in Albany this 
winter, politicians have put forth all sorts of bills to curb our 
freedom. They range from automatic unionization of charter bills to a 
quota system whereby charters would be capped and only allowed to 
educate a small percentage of a district. Indeed, replicators like us 
are a particular target. State Senator Bill Perkins, a Harlem 
politician, has a bill that would allow a single charter operator to 
educate only 5 percent of a district. These kinds of bills will kill 
replication, taking away the very freedoms that make high performing 
charters successful.
    Chairman Miller and members of House Committee on Education and 
Labor: please help charters with a strong record of success serve even 
more kids. This entails both financial support of replication but also 
not tampering with their secret sauce, autonomy!
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mrs. Lake?

    STATEMENT OF ROBIN LAKE, ASSOCIATE DIRECTOR, CENTER FOR 
     REINVENTING PUBLIC EDUCATION, UNIVERSITY OF WASHINGTON

    Mrs. Lake. Good morning, Chairman Miller.
    Chairman Miller. We are going to have you pull that 
microphone a little closer to you.
    Mrs. Lake. Thank you. Good morning, Chairman Miller. Is 
that better?
    Chairman Miller. Yes. Thank you.
    Mrs. Lake. Members of the committee, thank you so much for 
having us testify today.
    My name is Robin Lake. I am with the Center on Reinventing 
Public Education. We are a nonpartisan research center at the 
University of Washington.
    In my view, charter schools are essential to the most 
important school district reforms at play today. And this is 
especially true in some of the major urban districts, the 
megadistricts that we think about, that people had largely 
given up hope on in the past.
    They had given up hope that reforms would ever overcome 
decades of pretty dismal school performance and graduate rates 
and dropouts.
    This wasn't the case even a few years ago. Most districts 
at that point had either ignored charter schools, hoping that 
they would be basically a passing fad, go away, or tried to 
marginalize their impact for lobbying--by lobbying for state 
charter school caps or limited funding.
    But district leaders are coming to realize now that charter 
schools have an important and, I would argue, in many ways a 
game-changing role to play in district reform. And let me give 
you just a few examples.
    In New Orleans, 60 percent of all public schools are now 
charter schools. At first, this is basically a practicality. 
After Hurricane Katrina, charters run by nonprofits were the 
first schools that were open--able to open quickly enough after 
the storm to serve local students.
    But now the Recovery School District is actually turning 
district-run schools into charters because they are looking at 
the performance and realizing they are--the charters are simply 
outperforming district schools.
    So now 76 percent of charter schools in the Recovery School 
District were considered last year academically acceptable or 
better, compared to only 15 percent of the district-run 
schools.
    In Denver, successful college prep charter schools now take 
the place of district schools that failed students for decades.
    The superintendent there doesn't think of his job as 
running a school system. He thinks of himself as running a 
system of schools or a portfolio of schools. His job is to get 
the best schools possible for the kids in Denver, and he 
doesn't particularly care what they are called.
    In New York City, district officials say that after having 
repeatedly tried and failed to fix their worst schools, they 
have no choice now but to turn to charter schools.
    The district officials actually lobbied the state 
legislature to go ahead and lift the statewide cap so that they 
can replace more failing schools.
    So these district leaders all have different reforms in the 
specifics, but they have one thing in common, and that is they 
believe that their work is too urgent and too important to 
close off any viable options.
    They see charter schools not as a threat but as an 
opportunity to overcome school system inertia. They see 
charters as a way to give them the political leverage they 
need. So instead of trying to compete with charters, they are 
trying to co-opt them.
    Now, here are four specific things that charter schools 
offer smart districts. First, access to new talent. District 
leaders know that they can't fix their public schools without 
great people. And charter schools tend to attract 
entrepreneurial teachers, principals, central office folks who 
wouldn't otherwise choose to work in public education.
    Second, they offer the opportunity to start schools from 
scratch. So they find it is much easier to close low-performing 
schools if they can announce that a charter school with a 
proven model will take its place. And it is much easier to open 
a new school rather than to try to fix a school with a 
persistent toxic culture of failure.
    Charter schools, third, offer proof that things can be 
better, so the proof point that Dr. Moskowitz was just talking 
about. The presence of even one charter school that is sending 
all of its poor and minority students to college can really be 
a game changer for an urban superintendent, and it can take 
away excuses that district schools can't do better. It can 
inspire people to want to make politically difficult decisions.
    Fourth, charter schools can create urgency to resolve 
differences. A healthy charter school sector and competition 
can actually act as a common enemy that can bring district 
management and unions to the table to renegotiate new contracts 
that work better for students in all schools.
    There are many examples like this of district leaders who 
are getting past the charter label and are using charters to do 
what they wanted to do anyway. But I know that many of you hear 
often from school district leaders who are losing students to 
charter schools and see that as a threat.
    In response to those complaints, many states have capped 
charter school growth to protect districts, and others have 
tried to ease the financial pain, and at the same time policy-
makers wonder why charter schools aren't causing widespread 
school improvement. But that can't happen if states continue to 
protect districts from competition.
    So if we want charter schools to be a tool for district 
reform beyond just a handful of forward-thinking districts, it 
is time to level the financial playing field so that charters 
have access to decent facilities and an equal share of public 
funding. And it is time to stop protecting school districts 
with arbitrary statewide caps.
    It is also true, though, that policy-makers have one more 
obligation if the charter sector is to be taken seriously by 
district leaders. Too many charter schools, as we have heard 
this morning, are mediocre, and many are performing very badly.
    Lawmakers should insist that states and districts take 
performance oversight very seriously and close down charter 
schools that aren't effective. And they need to promote and 
replicate more high-performing charter schools, as this bill 
tries to do.
    To close, then, the strategy of chartering is increasingly 
seen by school districts as an opportunity to create the 
schools they need. But that very promising strategy is unlikely 
to happen in more than just a handful of districts that we are 
hearing about today until states commit to fair competition 
and, probably more importantly, performance-based 
accountability.
    Thank you.
    [The statement of Mrs. Lake follows:]

        Prepared Statement of Robin J. Lake, Associate Director,
                 Center on Reinventing Public Education

    Chairman Miller, Ranking Member Kline, and members of the 
committee, thank you for inviting me to testify today.
    Charter schools are responsible for some of the most important 
school district reforms at work today. This is especially true in some 
major urban districts where people had largely given up hope that 
reforms would ever overcome decades of dismal school performance.
    This was not the case even a few years ago. Most districts either 
ignored charter schools hoping that they would be a passing fad or 
tried to marginalize their impact by lobbying for state charter caps or 
limited funding.
    But district leaders are coming to realize that charters have an 
important and--in some cases a game-changing role--to play in public 
school improvement. Let me give you just a few examples.
    In New Orleans, 60% of all public schools are now charter schools. 
At first this was simply a practicality. After Hurricane Katrina, 
charters run by non-profits were the first schools able to open quickly 
enough to serve local students. But now the Recovery School District is 
actually turning district-run schools into charters because they are 
simply outperforming district schools. Seventy-six percent of charter 
schools in the Recovery School District were considered Academically 
Acceptable in 2009 compared to only 15% of the RSD operated schools.
    As school choice becomes the norm in New Orleans, poor parents are 
developing a new attitude. After years of accepting sub-par schools 
because it was their only option, they are now coming to believe that 
their kids are actually entitled to schools that will fully prepare 
them to go to college.
    In Denver, successful college prep charter schools now take the 
place of district schools that failed students for decades. The 
superintendent doesn't think of his job as running a school system. He 
runs a system of schools. His job is to get the best schools possible 
to the kids in Denver. He doesn't particularly care what they are 
called.
    In New York City, district officials say that after having 
repeatedly tried and failed to fix their worst schools they have no 
choice but to turn to charter schools. District officials actually 
lobbied their state legislature to lift a statewide cap on charters so 
that they could replace more failing schools.
    These district leaders all have different reforms in the specifics. 
But they have one thing in common. They believe that their work is too 
urgent and too important to close off any viable options. They see 
charter schools not as a threat but as an opportunity to overcome 
school system inertia. They see charters as a way to give them the 
political leverage they need. Instead of trying to compete with 
charters, they are co-opting them.
    Here are four specific things that charter schools offer smart 
districts.
    1) Talent: District leaders know that they can't fix their public 
schools without great people. Charter schools attract entrepreneurial 
teachers, principals, and even central office staff who wouldn't 
otherwise choose to work in public education.
    2) The opportunity to start schools from scratch. It is much easier 
for districts to close low-performing schools if they can announce that 
a charter school with a proven model will take its place. And it is 
much easier to close and reopen a school than to try to fix a school 
with a persistent toxic culture of failure.
    3) Proof that things can be better. The presence of even one 
charter school that is sending all of its poor and minority students to 
college can be a game changer for an urban superintendent. It can take 
away excuses that district schools can't do better and it can inspire 
people to want to make politically difficult decisions.
    4) Urgency to resolve differences. A healthy charter sector can act 
as a common enemy that actually can bring district management and 
unions to the table to negotiate new contracts that work better for 
students in all schools. As a result of competition from various choice 
options, Minneapolis Public Schools dropped from the largest to the 
fourth-largest district in Minnesota in just a few years. This 
downsizing led to massive teacher layoffs. The Minneapolis teachers 
union responded by pushing for new state legislation to allow 
autonomous, but still unionized, district schools.
    There are many examples of district leaders who are getting past 
the charter label and are using charters to do what they wanted to do 
anyway. But I know that many of you hear from school district leaders 
who are losing students to charter schools and see that as a threat.
    In response to those complaints, many states have capped charter 
school growth to protect districts from charter competition. Others 
have tried to ease the financial pain of enrollment loss by providing 
aid to districts that lose students to charter schools. At the same 
time policy makers wonder why charter schools are not causing 
widespread school improvement.
    We should not expect charter schools to inspire improvement if 
states continue to protect districts from competition. If we want 
charter schools to be a tool for district reform beyond just a handful 
of forward-thinking districts, it is time to level the financial 
playing field so that charters have access to decent facilities and an 
equal share of public funding. It's time to stop protecting school 
districts with arbitrary statewide caps.
    It's also true however, that policy makers have one more obligation 
if the charter sector is to be taken seriously by more districts. Too 
many charter schools are mediocre and many are performing very badly. 
Lawmakers should insist that states and districts take performance 
oversight seriously and close down charter schools that are not 
effective. And they need to promote and replicate more high performing 
charter schools.
    To close, then, the strategy of chartering is increasingly seen by 
school districts as an opportunity to create the schools they need. But 
that very promising strategy is unlikely to happen in more than a 
handful of urban districts until states commit to fair competition and 
performance-based accountability.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Professor Hehir?

 STATEMENT OF THOMAS HEHIR, ED.D., PROFESSOR, HARVARD GRADUATE 
                      SCHOOL OF EDUCATION

    Mr. Hehir. Good morning, Mr. Miller and the committee. I am 
very pleased to be back here after many years away.
    I am here today to talk about special populations in 
charter schools. I would like to begin by expressing my strong 
support for charters and for public school choice, which 
charters represent.
    I would like to also say that I have prepared many students 
at Harvard University who have gone out to run charters and 
teach in charters, and I am very, very pleased with their work.
    Charters represent a tremendous opportunity for special 
populations. Parents of children with disabilities need 
choices. Parents who are very affluent often move from one 
district to another to find a school that is accepting of their 
children and provides good support.
    Middle-and low-income parents do not have that option. And 
charter schools provide that option for many parents of 
children with disabilities in this country. And that should be 
supported and increased.
    Also, charter schools are viewed by many activists within 
various special populations as an opportunity to address issues 
that have been poorly addressed in traditional systems. For 
instance, the National Council of La Raza is supporting the 
establishment of over 50 charter schools to expand 
opportunities for children who are English language learners.
    The Chime Charter School in Los Angeles was designed by 
parents of children with disabilities who were seeking 
inclusive options for their children.
    Also, many charters, certainly charters that I have looked 
at in my research, often are based on the principles of 
individualization and often employ strong efforts in direct 
instruction. These are exactly the sort of things that many 
children with disabilities as well as other children who 
struggle need.
    The problem, as I see it, as it relates to charters--and I 
keep having to pronounce that explicitly with my Boston accent, 
charters--is under-enrollment, that if you look at charters in 
many places, the number of kids with disabilities who are 
enrolled in those charters is significantly below what exists 
in traditional schools.
    For instance, in San Diego, where I have done research, in 
2005-2006, the percentage of children in non--what are called 
non-conversion charters--in other words, charters that start 
from scratch--is 5.8, compared to 12 percent of the overall 
traditional public school population.
    Also, in San Diego, very few children with complex 
disabilities are enrolled in charters. And when I did my 
research, there were only three--this is three individual 
children--with mental retardation enrolled in the non-
conversion charters and only two children with autism in San 
Diego.
    In Los Angeles, there is a similar pattern, where the 
likelihood that a child with a more complex disability is 
enrolled in a charter is one-fourth that of traditional public 
schools.
    Many places, a similar pattern exists for English language 
learners--that in Boston, for instance, where 20 percent of 
children are English language learners, there is only one 
charter that exceeds 4 percent in its enrollment of English 
language learners.
    Why is this a problem, this under-enrollment? Number one, 
it compromises the charter experiment. In other words, if you 
are not serving comparable kids, it is difficult to make 
assertions.
    Secondly, it raises civil rights concerns. Third, the 
financial burden for educating these children may fall 
disproportionately on the traditional public schools.
    In light of this, I recommend the following. One, that 
states proactively address the issue of underrepresentation of 
special populations. The secretary of education should be 
required to approve authorizing regulations to make sure that 
federal statutes are adhered to when schools are authorized.
    But also, states should be required to demonstrate to the 
secretary that they are supporting charters in serving special 
populations. Most charter operators want to do this but need 
assistance in doing this.
    And last, I believe we should be funding, as the bill calls 
for, research on best practices in charter schools. And I 
believe it is time for us to have a systematic study done by 
the National Research Council on the service for special 
populations in charter schools.
    Charters are no longer an experiment in the American 
education system and, thankfully, they are a well established 
part of the education system. But it is time for us to make 
sure that charters serve all children.
    Thank you very much.
    [The statement of Mr. Hehir follows:]

         Prepared Statement of Thomas Hehir, Ed.D., Professor,
                  Harvard Graduate School of Education

    My name is Thomas Hehir. I am a Professor of Practice at the 
Harvard Graduate School of Education where I teach courses on educating 
students with disabilities and federal education policy. I also work as 
a consultant in the area of special education primarily with large city 
school districts. My clients have included New York City, Los Angeles, 
San Diego, and Baltimore among others. I have spent my entire career in 
the field of special education as a classroom teacher, local 
administrator in both Boston and Chicago, and as a university 
professor. I also served as Director of the Office of Special Education 
Programs for the U.S Department of Education during the first six years 
of the Clinton Administration.
    In relationship to today's hearings I do not purport to be an 
expert on all aspects of charter schools. My expertise is primarily in 
special education. My knowledge of charter schools is based on work I 
have done in San Diego and Los Angeles assisting these districts to 
improve their programs for students with disabilities. I have also, 
supervised two doctoral students who have conducted research on the 
participation of students with disabilities in charters in 
Massachusetts and New Orleans, reviewed the literature in this area in 
preparation for teaching my courses. Further I have consulted with 
faculty colleagues who have done research on charters, and consulted 
with many of my former students who run charters. I have done research 
in three charter-like ``pilot schools'' in Boston that have enrolled a 
diverse population of students with disabilities that are outperforming 
their urban counterparts. I have also had the opportunity to speak with 
numerous parents of children with disabilities who have enrolled their 
children in charters or have considered the option.
    I would like to state from the onset that I am a proponent of 
charter schools. I believe that parents, particularly those who reside 
in urban and low-income areas should have choice within the public 
system. The need for choice is even greater for families of students 
with disabilities given the huge variability between schools in 
implementing the Individuals with Disabilities Education Act.
The Opportunity Charters Present for Special Populations
    Charters provide choice to all parents. For parents of students 
with disabilities choice is highly valued due to the high degree of 
variability that exists across public schools in educating their 
children. Though we have made great strides in improving educational 
offerings for students with disabilities, non-compliance with IDEA 
continues in many schools. Affluent parents sometimes move to get their 
children into schools that welcome their children and provide them with 
a high-quality education. I have done work with a high school in the 
Boston suburbs that does a great job including students with 
disabilities. I have met a number of parents who moved to this 
community simply to allow their children to attend this school. Poor 
and middle class parents do not have that option. Charters can and in 
some cases do provide this option.
    Some charter schools have even been created by activists who are 
seeking a more inclusive and effective option for children with 
disabilities. The Mary Lyons School, Boston Arts Academy pilot schools, 
Democracy Prep Charter in Harlem, and Chime Charter in Los Angeles are 
examples of schools that from their onset have sought to be inclusive 
of a diverse population of students with disabilities.
    There is also evidence that charters may serve students with 
disabilities in more inclusive settings than traditional public 
schools. Chris Wilkens, a doctoral student at Harvard, found that urban 
charters in Massachusetts were more likely to serve similar students 
with disabilities in inclusive settings than traditional urban public 
schools. His research also found that over-placement of African 
American students in special education was far less of a problem in 
charters than traditional urban public schools.
    Many charters focus intently on individualization that is a central 
tenet of IDEA. Others such as the KIPP schools focus on explicit direct 
instruction needed by many students with disabilities and other 
students who may struggle in school. These approaches may account for 
some of the lower levels of special education identification in charter 
schools. To the extent that these practices prevent inappropriate 
referrals to special education, they should be encouraged.
    A similar dynamic exists for English language learners and other 
special populations. Like students with disabilities, English language 
learners participate in charters in much smaller numbers than they 
exist in the population at large. However, some advocates for English 
language learners have seized upon the opportunity provided by charters 
to promote better education for these children. For instance, the 
National Council of La Raza has supported the establishment of over 50 
charters in their efforts to expand educational opportunity for this 
population.
The Problem of Charters and Special Populations
    Research on the participation of special populations and charters 
demonstrates that in most places these students are under-represented. 
For instance in the area of disability, charters generally serve fewer 
children with disabilities than traditional public schools. When one 
looks at students with more significant or complicated disabilities in 
general, charters serve far fewer students and in many instances none 
at all. Research conducted in a number of major cities bears this out. 
In San Diego, close to 10% of all students now attend charter schools. 
Though the enrollment of students with disabilities in traditional 
public schools overall approaches 12%, the average enrollment of 
students with disabilities in non-conversion (from scratch) charter 
schools during the 2005-2006 school year was 5.8% (Hehir & Mosqueda, 
2008). With respect to students requiring extensive special education 
services, the imbalance is even more dismal. For example, during the 
2005-06 school years, there were only three children with mental 
retardation in all San Diego non-conversion charter schools combined; 
traditional schools across the district, meanwhile, educated almost one 
thousand students with mental retardation. That same year, non-
conversion charter schools in San Diego educated just two students with 
autism.
    The picture is quite similar in Los Angeles. The enrollment of 
students in charter schools throughout the city is large (approximately 
8%). The enrollment of students with disabilities across the district 
averages over 11%, while the enrollment of students with disabilities 
in independent charter schools averages fewer than 7% (Independent 
Monitors Office, 2009). As in San Diego, the distribution of disability 
types within independent Los Angeles charter schools is skewed; for 
students with disabilities requiring extensive special education 
services, the likelihood they will be enrolled in independent charter 
schools is one-fourth that of traditional public schools.
    Similar data emerges for charters serving urban areas in 
Massachusetts. For the 2006-07 school years, the percentage of enrolled 
students with disabilities in traditional urban schools was 19.9%, 
while the percentage of enrolled students with disabilities enrolled in 
urban charter schools was significantly lower, 10.8%. As is the case in 
Los Angeles and San Diego, significantly fewer students were enrolled 
in all urban charter schools who had more substantial needs such as 
mental retardation, emotional disturbance, and autism. Several cities' 
charter schools enrolled none of these students.
    The under-enrollment of English language learners in charters 
mirrors that of that of students with disabilities in many places. In 
Boston where approximately 20% of students are English language 
learners, only one charter school enrolled more than 4%. In NYC a 
similar pattern emerges where the district enrollment is 15% English 
language learners and the charters serve approximately 4%.
    As for disadvantaged students, there is some evidence that charters 
in some places may enroll a more advantaged population. However the 
vast majority of charters are enrolling large number of disadvantaged 
students.
    Why is under-representation a problem?
    The under-representation of special populations in charter schools 
is a problem on a number of levels:
    a. First low participation rates raise potential civil rights 
concerns. Students with disabilities, English language learners and 
homeless students have rights as American citizens both granted to them 
by the Constitution and within various federal education laws. 
Anecdotal information suggests that some parents are discouraged from 
applying to charter schools and that some charter schools ``send back'' 
students with complicated needs to traditional public schools. America 
has opened doors to previously excluded groups through the Civil Rights 
Act, the IDEA and The Elementary and Secondary Education Act. The 
federal government needs to assure that discrimination is not occurring 
within the charter sector.
    b. The ``experiment'' that charters represent is compromised when 
charters do not serve the same populations as traditional public 
schools. One of the primary justifications for allowing charters to 
exist is to demonstrate better approaches for educating students for 
whom the current education system has failed. If they fail to serve 
representative populations their claims to being exemplary are 
significantly compromised.
    c. The failure of charters to enroll representative populations of 
students from special populations can disadvantage traditional public 
schools financially. As the San Diego school system demonstrates, the 
financial responsibility for educating students with disabilities rests 
with the traditional public schools. Yet, the charters receive roughly 
the same amount of money per-capita. It should be noted the per-capita 
cost in most school districts include the cost of educating special 
populations and that this cost is higher per pupil. For instance the 
cost of providing language supports to English language learners or 
transportation to homeless students increases the financial burden on 
school districts. In the case of students with disabilities this cost 
can be much higher. The population least represented in charters, 
students with low incidence and more complex disabilities, are the most 
expensive for schools to educate.
    d. There is financial incentive for charters not to educate 
students for whom additional costly services may be necessary. Under 
the current system many charters receive the same amount of money per 
student whether they educate students with more complex needs or not. 
Many charters, like many traditional public schools, encumber most of 
their money on the first day of school by hiring staff. When an 
unforeseen need arises during the year they may not have the resources 
to address that need. In traditional public schools the central office 
may step in with needed support or the anticipated needs of students 
from special populations are budgeted upfront. Some charters have 
established similar mechanisms but many have not. Therefore, when a 
child with additional needs becomes apparent the charter may not have 
the resources to meet this need. I am aware of charters that have not 
even budgeted for a single special education teacher upfront.
Policy Considerations
    In my opinion, it is time for policy makers to directly address the 
issue of imbalanced enrollment of students from special populations in 
charter schools. Though some may have argued in the past that charter 
schools needed time to get established, and to have flexibility to 
experiment, they are now a well-established segment of our education 
system. The charter choice should be available to all students and 
parents. Toward that end I believe the federal government has a role in 
assuring equity and promoting more effective public school choice for 
parents of children from special populations. The following 
recommendations are offered:
    (1) The federal government should require states to proactively 
address issues of access involving special populations as a condition 
for receiving federal funds.
    The US Department of Education historically has played a crucial 
role in promoting equity in education in the areas of racial 
desegregation, gender equity and disability access among others. The 
lack of access for special populations to some charters raises serious 
equity and civil rights concerns. At a minimum, states should be 
required to submit their authorizing regulations to their Departments 
of Education for approval. States should further be required to 
investigate charters that enroll significantly fewer students from 
special populations than their surrounding area contains. It is 
important to emphasize here that states should be allowed flexibility 
as there should not be an expectation that charters always mirror the 
population of the surrounding area. Some charters may have lower 
special education counts simply because they have been successful in 
eliminating inappropriate referrals to special education. Others may 
have been established to serve English language learners. These 
innovations should not be discouraged. The point here is that the state 
needs to reasonably assure the federal government that special 
populations' access to charters is not impeded.
    States should also be required to assist charter operators in 
meeting their obligations to provide access to special populations. The 
vast majority of charter operators I have met want to address the needs 
of all students. Again, this may take many forms and states should be 
allowed a good deal of flexibility in meeting this requirement.
    (2) The federal government should establish a federal technical 
assistance center focusing on the needs of students from special 
populations in charter schools.
    This center would primarily serve the states in meeting their 
obligations detailed above. Such a center could provide states with 
model authorizing documents as well as information about successful 
practices in charters serving special populations. This model has 
worked very effectively in IDEA and the Elementary and Secondary 
Education Act as a vehicle to promote better practices in the schools.
    (3) Fund research on serving special populations in charter 
schools.
    Though I am sure Congress has gotten advice from many quarters on 
how to address these issues, there is no consensus on the range or 
extent of the problems concerning special populations and charter 
schools. I believe this issue is important enough to warrant a National 
Research Council study. Such a study would provide an objective picture 
of the current state of charters and special populations and identify 
promising practices. Congress should also fund a research program to 
investigate ways in which charters can better serve special 
populations.
Final Reflections
    This past year I assisted my cousin in choosing an elementary 
school in Boston for her four year-old twin boys. Having worked in the 
Boston system from 1977-1987, I was pleasantly surprised at how much 
the system had improved. My cousin is currently considering two public 
charters and two traditional public schools for the boys. All four are 
strong choices. This contrasts to the system I left where parents were 
often given few or no choices and were forced to send their children to 
underperforming schools. I believe Boston is a far better system for a 
number of reasons but one is parental choice. Boston outperforms most 
major cities on the National Assessment of Educational Progress as does 
the state of Massachusetts. Parental choice is deeply embedded in the 
state as well. The challenge facing Massachusetts as well as Congress 
is how we make this choice real for all parents.
    Finally, in doing research for this testimony I relied on an old 
and tested method; Facebook. I posted a request for assistance to my 
former students many of whom work in charters. They responded well to 
their old professor. One related that she was working as a psychologist 
in a major city with troubled youth many of whom are in the foster care 
system. Many of her students have opted for charters in lieu of large 
impersonal high schools that had utterly failed them. She found that 
charters had been particularly effective in serving GLBT youth who felt 
unsafe in traditional high schools. Another student related how her 
sister had placed her son in a local charter school and how happy she 
was that she was not forced to send him to an underperforming 
elementary school. However, she has another child with disabilities for 
whom this choice was not an option. For her disabled daughter, she had 
no choice and was forced to place her in the same underperforming 
school she avoided for her son. She has been forced to file for a due 
process hearing in order to get an acceptable choice for her. This will 
be a huge financial burden on the family. Public school choice is an 
incomplete option for this family.
    It's time for the adults who run charters and for those who 
authorize them to act. The charter ``experiment'' has gone on long 
enough. Access to all must become a priority. When PL 94-142 was passed 
in 1975 opening up the doors of schools to thousands of previously 
excluded students with disabilities Congressman Miller stated, ``I 
believe the burden of proof * * * ought to rest with the administrator 
or teacher who seeks for one reason or another to remove a child from a 
normal classroom * * *'' We need to provide that same logic to charter 
schools and special populations. The burden of proof should fall on 
government officials, charter school operators and charter advocates 
who need to take proactive responsibility to deal with the very real 
issues of access for special populations.
    I hope Congress leads the way.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Richmond?

STATEMENT OF GREG RICHMOND, PRESIDENT, NATIONAL ASSOCIATION OF 
                   CHARTER SCHOOL AUTHORIZERS

    Mr. Richmond. Good morning, Chairman Miller and members of 
the committee. Thank you for inviting me to speak with you 
today.
    I am Greg Richmond, president of the National Association 
of Charter School Authorizers. NACSA is a membership 
organization not of charter schools but of the agencies that 
oversee charter schools.
    We work with our member agencies to grow the number of 
high-quality charter schools across the nation by setting 
professional standards for authorizing and providing technical 
assistance directly to authorizers.
    Over the past 15 years, the federal government has spent $2 
billion to support the creation of new charter schools. This 
has been a good and appropriate investment, creating better 
educational opportunities for hundreds of thousands of 
children.
    Yet during that same time, the federal government has 
invested almost nothing--less than $2 million, or one-tenth of 
1 percent--to ensure that those schools are held to high 
standards and properly monitored by a competent authorizing 
agency.
    It is as if the federal government had spent billions for 
new highway construction but almost nothing to put up 
guardrails along the sides of those highways. Yes, new highways 
will allow drivers to get where they are going faster, but the 
lack of guardrails will sometimes lead to horrible accidents.
    Authorizers, if you will, are the guardrails of the charter 
school sector. They are the institutions that oversee public 
charter schools on behalf of the public.
    While some think of authorizing as a one-time action to 
approve a new school, in reality authorizers have three core 
responsibilities that continue throughout the life of the 
schools they oversee.
    First, authorizers have a responsibility to maintain high 
standards and to hold schools accountable for achieving those 
standards. Organizations that would like to start a new charter 
school should be required to demonstrate a high capacity to 
succeed and to educate students to achieve high standards.
    Second, authorizers have a responsibility to protect 
student and public interests. This means that authorizers must 
ensure that all students are treated fairly. Admissions 
processes must be conducted fairly. Students with disabilities 
must receive appropriate services.
    And to protect the public, authorizers must put in place 
monitoring systems particularly to ensure that public funds are 
used appropriately.
    Third, authorizers have a responsibility to preserve the 
autonomy of the schools they oversee. Autonomy is a--is 
critical to charter school success.
    Freedom from vast mandates and regulations allows charter 
schools to be innovative and to excel. On a day-to-day basis, 
authorizers must preserve that autonomy and refrain from re-
regulating the schools they oversee.
    High standards, student and public interests, and autonomy.
    So how well are authorizers meeting those responsibilities 
on behalf of the public? The record is mixed. Some are doing a 
good job, but others are not doing well at all.
    Indeed, many charter school problems you may hear about are 
closely related to poor authorizing. Low-performing charter 
schools are sometimes allowed to stay open because their 
authorizers don't have the data or don't have the will to close 
them.
    Students may not be treated fairly because basic monitoring 
is not occurring. Or a school may go bankrupt while its 
authorizer did not require an annual audit.
    In some cities and states, these problems are rare because 
authorizers have developed professional systems to fulfill 
their responsibilities. But in other places, professional 
authorizing practices are seriously lacking.
    It is easy to forget about highway guardrails until the 
moment you lose control of your car. The same is true for 
charter authorizing. Without strong authorizer practices in 
place, a school drifting off course quickly becomes a disaster 
for its students, parents and the public.
    So what can you do? First, as you consider legislation like 
the All-STAR Act or the reauthorization of ESEA, be certain to 
include provisions that require authorizers to meet minimum 
professional standards.
    Also, as you vote to authorize funds for more charter 
schools in the future, ensure that some of those funds go to 
support improved authorizing.
    And finally, as you talk with officials of the Department 
of Education, let them know that you believe authorizing is an 
important component of a quality charter school sector, not 
only in the future but also right now.
    My organization and our members see the positive power of 
charter schools every day. From coast to coast, we work with 
hundreds of excellent schools that are making a real difference 
in children's lives. But we also know that harm can be done if 
charter schools are not properly monitored.
    Authorizers have a responsibility to maintain high 
standards, protect student and public interests, and preserve 
school autonomy. And with your support, more authorizers can 
successfully fulfill those responsibilities now and in the 
future.
    Thank you.
    [The statement of Mr. Richmond follows:]

         Prepared Statement of Greg Richmond, President & CEO,
         the National Association of Charter School Authorizers

    Good Morning Chairman Miller, Ranking Member Kline, and Members of 
the Committee. Thank you for inviting me to speak with you today. I am 
Greg Richmond, President and CEO of the National Association of Charter 
School Authorizers.
    NACSA is a membership organization, not of charter schools, but of 
the agencies that oversee charter schools. We work with our member 
agencies to grow the number of high-quality charter schools across the 
nation by setting professional standards for authorizing, evaluating 
the practices of authorizers and providing assistance directly to 
authorizers.
    Over the past fifteen years, the federal government has allocated 
$2 billion to support the creation of new charter schools. This has 
been a good and appropriate investment, creating better educational 
opportunities for hundreds of thousands of children. Yet during that 
same time, the federal government has invested almost nothing, less 
than $2 million, or one-tenth of one percent, to ensure that those 
schools are held to high standards and properly monitored by a 
competent authorizing agency.
    It is as if the federal government had spent billions for new 
highway construction, but nothing to put up guardrails along the sides 
of those highways. Yes, new highways will allow drivers to get where 
they are going faster, but the lack of guardrails will sometimes lead 
to horrible accidents.
    Authorizers, if you will, are the guardrails of the charter school 
sector. They are the institutions that oversee public charter schools 
on behalf of the public.
    While some think of authorizing as a one-time action to approve a 
new school, in reality, authorizers have three core responsibilities 
that continue throughout the life of the schools they oversee.
    First, authorizers have a responsibility to maintain high standards 
and to hold schools accountable for achieving those standards. 
Organizations that would like to start a new charter school should be 
required to demonstrate a high capacity to succeed. Charter schools 
that are already operating should be required to demonstrate a track 
record of academic achievement in order to stay open.
    Second, authorizers have a responsibility to protect student and 
public interests. This means that authorizers must ensure that all 
students are treated fairly. Admissions processes must be conducted 
fairly. Students with disabilities must receive appropriate services. 
Discipline and expulsion processes must be fair. To protect the public, 
authorizers must put in place monitoring systems, particularly to 
ensure public funds are used appropriately.
    Third, authorizers have a responsibility to preserve the autonomy 
of the schools they oversee. Autonomy is critical to charter school 
success. Freedom from vast mandates and regulations allows charter 
schools to be innovative and to excel. On a day-to-day basis, 
authorizers must preserve that autonomy and refrain from re-regulating 
the schools they oversee.
    High standards, student and public interests, and autonomy. How 
well are authorizers meeting these responsibilities on behalf of the 
public? The record is mixed. Some are doing a good job, but others are 
not doing well at all. Indeed, many charter school problems you may 
hear about are closely related to poor authorizing.
    Weak proposals for new schools are sometimes approved because some 
authorizers do not have a strong application evaluation process in 
place. For example, our survey of authorizer practices from across the 
nation found that 13% of authorizers do not conduct an in-person 
interview with organizations applying for a new charter.
    Low-performing charter schools are sometimes allowed to stay open 
because their authorizers don't have the data or don't have the will to 
close them. Our national survey found that one-quarter of authorizers 
do not have guidelines for making renewal decisions and one-fifth of 
authorizers do not apply consistent academic standards across all of 
the charters they oversee.
    Students may not be treated fairly because basic monitoring is not 
occurring. Forty percent of authorizers reported that they do not have 
sufficient resources to perform their responsibilities.
    Finally, a school may go bankrupt while its authorizer did not 
monitor its finances, because 15% of authorizers surveyed do not 
require an annual audit.
    In some cities and states these problems are rare because 
authorizers have developed professional systems to fulfill their 
responsibilities. But in other places, as noted above, professional 
authorizing practices are seriously lacking.
    It is easy to forget about highway guardrails until the moment you 
lose control of your car. The same is true for charter authorizing. 
Without strong authorizer practices in place, a school drifting off 
course quickly becomes a disaster for its students, parents and the 
public. So what can you do?
    As you consider legislation like the All-STAR Act, be certain to 
include provisions that improve authorizing. While my organization 
supports the overall goals of the All-STAR Act, the provisions related 
to authorizing are inadequate and need to be improved.
    All-STAR does not require grant applicants to have any plans to 
strengthen authorizing. In fact, the ``Use of Funds'' section of the 
bill does not allow grant recipients to use funds for any activities to 
improve authorizing.
    All-STAR identifies preferences for grant applications in three 
areas that are related to quality authorizing: contracts, public 
reporting, and authorizer evaluation. Applicants with those three 
elements are more likely to receive funds. We are pleased by those 
elements but must recognize that they are optional, not required.
    All-STAR literally does not require quality authorizing practices 
to be in place as a condition to receive federal funds and specifically 
does not permit funds to be used to strengthen authorizing. NACSA does 
not believe that quality authorizing should be optional.
    Beyond the proposed All-STAR Act, as you vote to authorize funds 
for more charter schools, ensure that some of those funds go directly 
to support improved authorizing. And as you talk with officials at the 
Department of Education, let them know that you believe authorizing is 
an important component of a quality charter school sector.
    While I have been pleased by Secretary Duncan's strong support for 
the growth of quality charter schools, the Department of Education 
needs to be equally supportive of quality authorizing. For example, 
within the Race to the Top competition, the criteria related to 
authorizing are relatively weak. And despite a $40 million increase for 
charter schools in the 2010 budget, the Department is not planning to 
dedicate any new funds directly for authorizing.
    Just as in years past, more money for new highways and no money for 
guardrails.
    My organization and our members see the positive power of charter 
schools every day. From coast to coast, we work with hundreds of 
excellent schools that are making a real difference in children's 
lives. But we also know that harm can be done if charter schools are 
not properly monitored.
    Authorizers have a responsibility to the public to maintain high 
standards, protect student and public interests, and preserve school 
autonomy. With your support, more authorizers can successfully fulfill 
those responsibilities. Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Ahearn, welcome.

 STATEMENT OF EILEEN AHEARN, DIRECTOR, NATIONAL ASSOCIATION OF 
              STATE DIRECTORS OF SPECIAL EDUCATION

    Ms. Ahearn. Good morning. Thank you for the opportunity to 
appear before you and discuss these important issues related to 
charter schools.
    My name is Eileen Ahearn, and I come to this discussion 
with a long background in both general and special education. I 
have been a public school teacher, a director of a special 
education collaborative, a district director of special 
education, and the superintendent of a school district.
    I came to NASDSE, the National Association of State 
Directors of Special Education, in 1991 to work on national and 
state policy issues. I have directed three federally funded 
projects that specifically focused on special education in 
charter schools.
    These projects have produced targeted resources, especially 
the series of Primers on Special Education in Charter Schools, 
that provide information and assistance for authorizers, 
operators and state officials who are involved with charter 
schools.
    The primers are now part of a Web site that includes 
additional resources that my colleagues and I developed on the 
topic of special education in charter schools.
    I currently serve as a consultant to the charter school 
community on special education issues while continuing to work 
at NASDSE on other projects. I see many parallels between the 
special education and the charter school movements.
    At their core, special education and charter schools are 
different approaches to providing students with educational 
opportunities that ideally match their unique educational 
needs.
    Any discussion of special education in charter schools must 
start with a clear understanding of the basic feature of 
charter schools--that is, parental choice. Students can be 
enrolled in charter schools only if their parent makes that 
choice.
    States have adopted charter school laws to provide 
additional options for parents so that they can access what 
they consider to be the best type of school program for their 
child to succeed.
    Charter schools may be waived for some--from some state or 
local requirements, but they are part of the public education 
system and, as such, they are subject to all federal laws and 
regulations related to students with disabilities, especially 
the Individuals with Disabilities Education Act, or IDEA.
    The requirements can pose problems for charter schools that 
are also mandated by state law to fulfill the mission for which 
they were approved when they were authorized to operate.
    Research has identified the policy tension between the 
prescriptive requirements of IDEA and the identifying features 
of charter schools that include the exchange of autonomy for 
accountability and placement based on parental choice.
    Most people are not aware of the many complexities involved 
in providing special education in a charter school. For 
example, the majority of charter schools are considered to be 
part of the school district that authorized them--that is, 
their LEA--and it is the LEA that can decide what, when and how 
special education will be provided in the charter school.
    Conversely, a charter school may be considered to be its 
own LEA under state law and hold full responsibility for all 
special education services its students need. That means that 
this type of charter school must provide all special 
instruction and related services in a student's IEP, such as 
speech or occupational therapy, or even the assignment of an 
aide specifically for that student.
    Further, the state location of a charter school is one of 
its predominant and most critical characteristics because 
requirements differ so widely among states. However, most 
states have not developed technical assistance to help charter 
schools meet these responsibilities.
    Some, however, have developed state-specific technical 
assistance that could be replicated for other states so that 
future charter schools can be better prepared to meet the 
special needs of students with disabilities before they open 
their doors.
    Over the more than 30 years that IDEA and its implementing 
regulations have been in effect, many changes have occurred. A 
major theme that has come from those revisions is an increased 
emphasis on educating students with disabilities with their 
non-disabled peers to the maximum extent possible.
    This approach, known as inclusion--that is, keeping 
students with disabilities in the general ed classroom, 
learning through standards-based general education curriculum. 
There are many charter schools that are prime examples of 
successful inclusion.
    There are also charter schools that are designed primarily 
to serve students with disabilities, and they also provide an 
important resource to parents and school systems.
    There is a significant need for policy clarification and 
technical assistance to help charter schools carry out their 
responsibilities for special education. The application process 
of many authorizers pays little or no attention to how the 
charter school will amass the capacity to meet the needs of 
students with disabilities who enroll in their schools.
    Many of the charter school administrators I have worked 
with have sincerely demonstrated their interest in and support 
for serving students with disabilities.
    Charter schools have become an important addition to 
America's public education system, and many of them have 
successfully served students with disabilities just as 
successfully as traditional public schools have done.
    Thank you again for this opportunity to appear before the 
committee, and I would be happy to answer any questions you may 
have.
    [The statement of Ms. Ahearn follows:]

   Prepared Statement of Eileen M. Ahearn, Ph.D., Project Director, 
      National Association of State Directors of Special Education

    Good Morning, Mr. Chairman, Senior Republican Member Kline and 
Committee Members: Thank you for the opportunity to appear before you 
and discuss important issues related to charter schools.
    My name is Eileen Ahearn and I come to this discussion with a long 
background in both general and special education. I have been a public 
school teacher, a director of a special education collaborative, a 
district director of special education and the superintendent of a 
school district. I came to NASDSE (the National Association of State 
Directors of Special Education) in 1991 to work on national and state 
policy issues. NASDSE is a nonprofit national organization that 
represents the state directors of special education in all 50 states, 
the District of Columbia, the Bureau of Indian Education, the 
Department of Defense Education Agency, the federal territories and the 
Freely Associated States.
    I have directed three federally funded projects that specifically 
focused on special education in charter schools. These projects have 
produced targeted resources, especially the series of Primers on 
Special Education in Charter Schools, which provide information and 
assistance for authorizers, operators and state officials who are 
involved with charter schools. The Primers are now part of a website 
that includes additional resources that my colleagues and I developed 
on the topic of special education in charter schools. I currently serve 
as a consultant to the charter school community on special education 
issues while continuing to work part-time at NASDSE on other projects.
    I see many parallels between the special education and charter 
school movements. At their core, special education and charter schools 
are different approaches to providing students with educational 
opportunities that ideally match their unique educational needs.
    Any discussion of special education in charter schools must start 
with a clear understanding of the basic feature of charter schools, 
that is, parental choice. Students can be enrolled in charter schools 
only if their parent makes that choice. States have adopted charter 
school laws to provide additional options for parents so they can 
access what they consider to be the best type of school program for 
their child to succeed.
    Charter schools may be waived from state or local requirements, but 
they are a part of the public education system and, as such, they are 
subject to all federal laws and regulations related to students with 
disabilities, especially the Individuals with Disabilities Education 
Act (IDEA). The requirements can pose problems for charter schools that 
are also mandated by state law to fulfill the mission for which they 
were approved when they were authorized to operate. Research has 
identified the policy tension between the prescriptive requirements of 
IDEA and the identifying features of charter schools that include the 
exchange of autonomy for accountability and placement based on parental 
choice.
    Most people are not aware of the many complexities involved in 
providing special education in a charter school. For example:
    <bullet> The majority of charter schools are considered to be part 
of the school district that authorized them, i.e., their LEA, and it is 
the LEA that can decide what, when and how special education will be 
provided in the charter school.
    <bullet> Conversely, a charter school may be considered to be its 
own LEA under state law and hold full responsibility for all special 
education services its students may need. That means that this type of 
charter school must provide all special instruction and related 
services in a student's IEP, such as speech or occupational therapy or 
even the assignment of an aide specifically for that student.
    <bullet> Further, the state location of a charter school is one of 
its predominant and most critical characteristics because requirements 
differ so widely among states. However, most states have not developed 
technical assistance to help charter schools meet their special 
education responsibilities. Some, however, have developed state-
specific technical assistance that could be replicated for other states 
so that future charter schools can be better prepared to meet the 
special needs of students with disabilities before they open their 
doors.
    Over the more than 30 years that IDEA and its implementing 
regulations have been in effect, many changes have occurred. A major 
theme that has come from those revisions is an increased emphasis on 
educating students with disabilities with their nondisabled peers to 
the maximum extent possible. This approach is known as inclusion, that 
is, keeping students with disabilities in the general education 
classroom, learning through the standards-based general education 
curriculum. There are many charter schools that are prime examples of 
successful inclusion. There are also charter schools that are designed 
primarily to serve students with disabilities and they also provide an 
important resource to parents and school systems.
    There is a significant need for policy clarification and technical 
assistance to help charter schools carry out their responsibilities for 
special education. The application process of many authorizers pays 
little or no attention to how the charter school will amass the 
capacity to meet the needs of students with disabilities who enroll in 
their schools. Many of the charter school administrators I have worked 
with have sincerely demonstrated their interest in and support for 
serving students with disabilities. Charter schools have become an 
important addition to America's public education system and many of 
them have successfully served students with disabilities just as many 
traditional public schools have done.
    Thank you again for this opportunity to appear before the Committee 
and I would be happy to answer any questions that you might have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Young?

   STATEMENT OF CAPRICE YOUNG, ED.D., PRESIDENT AND CEO, KC 
             DISTANCE LEARNING, KNOWLEDGE UNIVERSE

    Ms. Young. Thank you, Chairman Miller and members of the 
Education and Labor Committee. Good morning.
    And thank you for the opportunity to testify today at your 
first hearing in the 111th Congress on reauthorization of 
elementary and secondary school education.
    It is especially an honor that you are focusing your first 
committee hearing on charter schools and their effectiveness. 
It is an honor for the movement, because it says to us that we 
have arrived, that we are taken seriously, and that the kinds 
of gains that we are making with students will have a chance to 
be integrated into the larger education system as a whole.
    My day job is that I am the CEO of KC Distance Learning, 
and we enable education innovators to create high-quality 
online programs for charter and non-charter public school 
students as well as private schools in grades 6 through 12 
across the country.
    And I am here today in my role as chair of the National 
Alliance for Public Charter Schools, where we represent charter 
schools and the students and parents and teachers and other 
educators in those charter schools throughout the country.
    It is a nonprofit organization that is bipartisan and is 
working hard to improve not just charter school education but 
public education as a whole.
    Before I go forward with more of my comments, I just wanted 
to take a minute to preface my remarks with some personal 
information that I think is important because it is the 
foundation that underlies my testimony.
    I was raised as one of two biologically connected children 
in a family headed by a special education teacher and sculptor 
and a juvenile probation officer who is also a minister. They 
served as foster parents for 45 years.
    By the time I went to college, I had had more than two 
dozen brothers and sisters of all different ethnicities and 
backgrounds. But the one thing that they all had in common was 
an unrealized potential due to the situations in which they 
were born.
    And during my career I have been honored to have been 
responsible for 68 high school students complying with their 
court-required community service; more than 1 million early 
childhood education, kindergarten through 12th grade and adult 
learning students in L.A. Unified School District; a quarter of 
a million charter schools in California; and 63,000 online 
students learning who attend our IQ Academies, who are enrolled 
in Aventa courses and The Keystone School.
    I am the mother of three girls who span the spectrum of 
having special needs, being typically developing, and being 
highly gifted. So when I talk about my commitment to high 
quality education for all school--for all students, it comes 
from a very personal experience of the diversity of learners 
that we have a responsibility to teach.
    Basically, I support the philosophy of education by all 
means necessary. And I know that the members of this committee 
share a similar depth of commitment based on your own personal 
stories.
    Mr. Chairman, I would like to continue by just giving you 
an aphorism that I was raised with, and that is that it is 
very--it is very important to experiment, and new charter 
schools are doing great experimentation.
    But at some point you also need to do more of what works, 
and less of what doesn't work, and you have to know the 
difference. As my family would say, more of what works, less of 
what doesn't, and know the difference. Or as other people might 
say, is if you find yourself in a hole, stop digging. But it is 
more than that.
    Over the last several years, we have been engaged in 
activities to grow the charter movement, working with both 
schools and support organizations, all with a focus on quality.
    Importantly, too, the movement has and continues to support 
the closure of low-performing charter schools, which is all 
about doing less of what doesn't work.
    And we also support the closure and restructuring of any 
public school that is not meeting the student educational 
needs. It is that kind of balance that makes us credible. We 
hold ourselves to the same high standards we would demand of 
any other public school.
    Inherent in the charter concept that everyone here has 
identified is this responsibility in exchange for autonomy. And 
we strongly support that and support regulations that support 
that as well.
    To give you a sense of how the charter school movement has 
grown--and you have identified some of that--in 1994 when the 
charter school program was originally created, there were only 
seven states with charter school laws and only 60 schools in 
existence.
    By the time No Child Left Behind was signed into law there 
were slightly more than 2,000 charter schools in 37 states and 
the District of Columbia. Today, there are almost 5,000 charter 
schools educating more than 1.6 million children in 39 states 
and the District of Columbia.
    To give that a regional flavor, when I started on the 
school board in Los Angeles, we had about a dozen charter 
schools. Some of them were independent and some of them were 
district-created charter schools. Now they have more than 160, 
more than 160 schools.
    The charter school movement just in the state of 
California--if you were to measure it by size equivalent to 
other school district, it would be fourth in the country in 
terms of the size of the movement. So clearly, we have gone 
beyond experimentation to actually serving the educational 
needs of students.
    I am almost out of time. To conclude, I wrote a lot in my--
you know, in my statement that was in the record. But the 
bottom line is this. If we want to be able to have a great 
education system, we have to do more of what works, less of 
what doesn't. And charter schools are doing that all across the 
country.
    And I appreciate your support for expanding the charter 
schools program to be able to make those kinds of changes 
effective.
    [The statement of Ms. Young follows:]

  Prepared Statement of Caprice Young, President and CEO, KC Distance 
 Learning; Board Chairman, National Alliance for Public Charter Schools

    Chairman Miller, Ranking Member Kline, and members of the Education 
and Labor Committee, good morning. Thank you for the opportunity to 
testify today at your first hearing in the 111th Congress on 
reauthorizing the Elementary and Secondary Education Act of 1965 
(ESEA). I am Caprice Young, President and CEO of KC Distance Learning, 
a leading provider of distance learning programs for 62,000 public and 
private school students in grades 6 through 12 across the country, and 
I am also the board chairman of the National Alliance for Public 
Charter Schools, a nonprofit organization representing all sectors of 
the national charter school movement.
    I would like to preface my remarks with some personal information 
that underlies my testimony. I was raised as one of two biological 
children in a family headed by a special education teacher/sculptor and 
a juvenile probation officer/minister who served as foster parents for 
45 years. By the time I went to college, I had had more than two dozen 
brothers and sisters from a variety of ethnicities and backgrounds. The 
one thing they all had in common was unrealized potential due to the 
situations into which they were born. During my career I have been 
responsible for 68 high school students complying with their court-
required community service; more than a million early childhood 
education, K-12, and adult school students in LAUSD; a quarter of a 
million charter school students in California; and 63,000 online 
learning students who attend IQ Academies, or are enrolled in Aventa 
Learning courses and The Keystone School now. I am the mother of three 
girls who span the spectrum of having special needs, developing 
typically and being highly gifted. When I talk about my commitment to 
high quality education for all students, it comes from a very personal 
experience of the diversity of learners we have a responsibility to 
reach. I support the philosophy of education by all means necessary. I 
know the members of this committee share a similar depth of commitment 
from your own stories.
    Mr. Chairman, the fact that you have called the first ESEA 
reauthorization hearing to discuss new ways to support charter school 
replication and expansion is a huge honor for the public charter school 
movement. I recognize there are many reform ideas and proposals to 
consider, and I thank the Committee for leading off its reauthorization 
efforts by highlighting ways America can more fully and robustly 
support the growth, replication, and expansion of high quality 
charters, while also infusing charter concepts throughout ESEA with the 
intention of improving all public schools. Together, in a bipartisan 
fashion, the charter school movement looks forward to working with 
Members to support these goals. I also recognize that as ESEA is 
reauthorized, and the charter school programs are reauthorized, more 
focus must be placed on ensuring our best charter models are enabled to 
grow (rewarding success) and that the federal programs are updated to 
encourage state policies governing charter schools improve.
    Over the last several years, I have, along with organizations such 
as the National Alliance for Public Charter Schools, engaged in 
activities to grow the charter school movement, working with both 
schools and support organizations, all with a focus on quality. 
Importantly too, the movement has, and continues, to support the 
closure of low-performing charter schools. Inherent in the charter 
concept, and essential for success, is an agreement that in exchange 
for autonomy, quality schools will be developed or they will be closed 
down. I'd like to highlight a couple noteworthy activities of the 
movement in support of these goals: the National Alliance for Public 
Charter Schools created the ``Task Force on Charter School Quality and 
Accountability'' in 2005, which established the principle that the 
movement will flourish only if charter schools grow in quality as well 
as in numbers; it created a new model state charter law, developed 
through extensive consultation with policy experts and charter movement 
leaders; In 2009, the National Alliance released the first-ever ranking 
of all state charter school laws based on the full range of values in 
the public charter school movement, including quality and 
accountability--which includes closing low-performing charter schools--
funding, and growth; and, The Allianceit developed a framework for the 
redesign of the Federal Charter Schools Program (CSP) with a new 
emphasis on quality startups and replication of effective charter 
models. I share these same objectives, beliefs, and goals.
    Over the past several years, the charter school movement has been 
fortunate to work extremely closely with this Committee on charter 
school matters. In the 110th Congress, H.R. 2904, a bipartisan proposal 
authored by Congressmen Boustany and sponsored by Congresswoman 
McCarthy, as well as several other Committee Members was introduced to 
redesign the current public charter school programs for the 21st 
Century. In 2009 and continuing to this day, I have been fortunate 
enough to see the great work of Rep. Polis on H.R. 4330 which has 
garnered bi-partisan Committee support from Rep. Ehlers. This is a 
proposal to support the replication and expansion of the best charter 
models while also encouraging and incentivizing states to dramatically 
improve policies authorizing and overseeing public charter schools.
    Additionally, I've watched work undertaken with the Senate on 
charter proposals too; ranging from Senator Vitter's recently 
introduced S. 2932, a proposal to redesign the current charter school 
programs, to ongoing work with Senator Landrieu and Senator Hagan on 
yet-to-be-introduced bills supporting education reforms and public 
charter schools. And, directly related to today's proceedings, I know 
the there is ongoing work with Senator Durbin on a Senate companion 
bill to the All Students Achieving through Reform Act (All-STAR).
    Throughout my career including my work with the National Alliance, 
the focus has been on good policy and working in a bipartisan manner. 
It is my hope that any ESEA reauthorization includes critical elements 
of improved charter policy supported by all of the Committee. As a 
professional who has worked in multiple roles representing the public 
charter school movement, my goal today is to impress upon the Committee 
the need to update the federal charter school programs. Specifically, 
To ensure the federal government reauthorizes them with certain key 
additions, continues to provides resources when states and locals do 
not meet their obligations to charter schools, that federal policies 
encourage states to improve their charter laws, that federal policies 
continue to support both the growth of new charters and also the 
replication and expansion of the best models, and that ultimately 
chartering is an education reform that benefits all public school 
children by having advantageous elements of charters infused throughout 
the traditional public school system.
    Included in the fiscal year 2010 appropriations for the U.S. 
Department of Education is new language enabling funding from the 
Federal Charter Schools Program (CSP) to support the replication and 
expansion of successful charter models; this was the first legislative 
change to the programs since 2001 when they were reauthorized as part 
of the No Child Left Behind Act to meet the needs of parents and 
children across the country. Authorized in 1994, the CSP was originally 
created when there were only seven states with charter school laws, and 
only 60 schools in existence. By the time NCLB was signed into law, 
there were just slightly more than 2000 charter schools in 37 states 
and the District of Columbia. Today, there are almost 5000 charter 
schools, educating more than 1.6 million children in 39 states and the 
District of Columbia. The movement's growth has been dramatic, and that 
growth has been sustained and encouraged because of parent demand and 
persistent educators combined with the right resources and policies.
    The CSP was designed as a competitive grant to encourage states to 
not only pass public charter school laws, but to enact quality charter 
school laws. Although much attention is placed on newer competitive 
grants and a potential for more, the CSP has long been a competitive 
grant program intended to reward states for implementing education 
reform policies in line with supporting quality charter school growth. 
Each time it has been updated, new elements have been included that at 
the time were seen as critical components of quality state charter 
legislation, elements which would foster the growth of a high quality 
schools. This emphasis must continue, and new policies must be adopted 
at the federal level which to continue push states to improve their 
charter laws and environments. In California, as president of the 
California Charter Schools Association (CCSA), we often leveraged the 
CSP to encourage state policy changes.
    One vital new direction for federal policy is ensuring the ability 
to support the replication and expansion of effective public charter 
schools. After almost 18 years of chartering, it is clear certain 
charter schools are some of the best schools, private or public, in 
America--more must be done to offer children an opportunity to attend 
them. As charter schools have grown, many have tried to replicate 
campuses or expand grades served to align K-12 offerings. Neither of 
these practices can be funded under current law, however. I encourage 
the Committee to consider changes via reauthorization to fully 
accomplish this goal. As mentioned before, via this year's 
appropriations process, new abilities were granted to the Department to 
fund the replication and expansion of the best charter models; however, 
this was a short term remedy, a release valve to help the schools 
currently trying to replicate but lack support. When ESEA is 
reauthorized, a more complete approach will need to be crafted. For the 
time being however, this new direction will be a dramatic help to 
schools around the country. For instance, the Knowledge is Power 
Program (KIPP) started 18 new schools in 2009, of those only 6 were 
able to receive CSP funding. Other high-performing charter management 
organizations (CMOs) share this problem. Uncommon Schools, a highly 
successful CMO operating schools in New York, New Jersey, and 
Massachusetts, plans to open 20 new schools in the next three years. 
Only six of these are eligible for CSP funding under current law. 
Achievement First, another nationally known high-quality CMO operating 
schools in Connecticut and New York, plans to open 10 schools in the 
next three years, but only three are currently eligible for CSP funding 
under current law.
    Ultimately though, even with federal funding able to support 
replication and expansion of the best charter models, state policies 
are, and will always likely be, the main factor in determining the 
environment in which charters operate. It is critical that federal 
policies be structured in alignment with good state policy. When this 
occurs, a constant loop of feedback can be set up. Federal incentives 
can encourage states to adopt the right policies, including equitable 
funding for charters, quality oversight of authorizers and all parties 
involved in chartering, equitable access to facilities and facilities 
support, and high levels of autonomy in exchange for high degrees of 
accountability. These will help create more high quality charter school 
sectors, like in New York City where ``gold standard'' study after 
study shows the city's public charter schools excelling and 
outperforming the traditional public schools in the city. Federal 
programs can reward states for setting up these policies, and then 
states can ultimately develop new and improved policies that can be 
adopted in the future via reauthorization. A closed circuit of 
improvement can be created between federal and state legislation, the 
federal law incentivizing states to develop better policies, and then 
the federal law adopting the best state practices to encourage 
additional states to adopt the successful policies.
    Currently though, the CSP has just three priority criteria for 
awarding grants to States:
    (A) the State has demonstrated progress in increasing the number of 
high quality charter schools that are held accountable in the terms of 
the schools' charters for meeting clear and measurable objectives for 
the educational progress of the students attending the schools, in the 
period prior to the period for which a state Education Agency or 
eligible applicants applied for a grant under this subpart
    (B) The State----
    (i) Provides for one authorized public chartering agency that is 
not a local education agency, such as a State chartering board, for 
each individual or entity seeking to operate a charter school pursuant 
to such State law; or
    (ii) In the case of a State in which local educational agencies are 
the only authorized public chartering agencies, allows for an appeals 
process for the denial of an application for a charter school.
    (C) The State ensures that each charter school has a high degree of 
autonomy over the charter school's budgets and expenditures.\1\
---------------------------------------------------------------------------
    \1\ See Charter Schools Program Section 5202 (e)(3) at: http://
www2.ed.gov/policy/elsec/leg/esea02/pg62.html#sec5202
---------------------------------------------------------------------------
    Although there are additional assurances that states must make when 
applying for CSP grants, these are the only priority criteria in 
determining grants to states. While these criteria have been helpful in 
addressing certain factors in state policies, and should continue to be 
priority criteria for federal charter funding, they do not reflect the 
full spectrum of policies at the state level to ensure quality charter 
growth.
    In 2007, a bipartisan bill was put forward to amend the Charter 
School Programs: H.R. 2904 and then subsequently adopted into the House 
2007 NCLB discussion draft. Many of these proposals included updating 
the priority criteria as well as enabling new usage of funds to better 
meet the growth of high quality schools. The six key changes were:
    <bullet> Enhancing Support for Start-Ups and Replications. First, 
while helping charter school start-ups remained the foundation of the 
CSP, H.R. 2904 also provided greater support for the expansion and 
replication of successful charter models. In particular, the bill 
allowed more than one CSP grant per recipient and permitted charter 
support organizations to receive grants to undertake expansion and 
replication activities. CCSA undertook significant steps to engage 
charters in CA's school turnaround efforts highlighted by the work at 
Gompers and Keiler traditional public schools which became successful 
charter schools. This change of who can directly administer the CSP 
grant would enable other groups to take on and support this activity 
more robustly like CCSA.
    <bullet> Strengthening Priority Criteria for State Grants. Second, 
the legislation strengthened the priority criteria by which the 
Secretary of Education may award grants to states. An ideal state 
charter school law encourages growth and quality as well as a high 
degree of school autonomy and accountability. To motivate states to 
adopt the ideal law, the bill added priorities to encourage the 
creation and support of non-district authorizers, the strengthening of 
charter school autonomy and accountability, and the provision of 
equitable funding to charter schools.
    <bullet> Allowing Authorizers to Serve as Grant Administrators. 
Third, the bill strengthened the administration of the CSP by allowing 
charter school authorizers to serve as grant administrators in addition 
to state education agencies (SEAs). In some states, the SEA may be the 
best organization to manage CSP funds. These SEAs have involved their 
state's public charter school leaders in the administration of their 
grants and in developing programs that reflect their state's specific 
needs. In states where SEAs have fallen short in administering (or even 
applying for) the program, however, charter schooling in those states 
will be enhanced by allowing charter school authorizers to compete for 
the CSP grant administrator role.
    <bullet> Granting Funding Discretion to the Secretary. Fourth, the 
bill allowed the Secretary of Education to allocate funds as needed 
between the Charter Schools Program and State Facilities Incentive 
Grants Program. This funding challenge is further exacerbated by the 
reservation of up to $100 million in new CSP funds for the State 
Facilities Incentive Grants Program. By granting discretion to the 
Secretary, the bill allowed for federal appropriations to respond to 
the needs of the states, recognizing that in certain years more money 
will be needed for the CSP, while in other years more money will be 
needed for the State Facilities Incentive Grants Program.
    <bullet> Creating a National Dissemination Program. Fifth, the 
legislation created a national dissemination program. As charter 
schools continue to grow, the best practices developed in these 
innovative public schools must be disseminated to all other public 
schools. Previously, the CSP's dissemination activities were primarily 
state-focused. As proposed by the legislation, a new national 
dissemination program will encourage the sharing of charter schools' 
best practices among public schools across the nation.
    <bullet> Reauthorizing the Credit Enhancement Program. Finally, the 
draft incorporated reauthorization of the Credit Enhancement for 
Charter School Facilities Program, an important vehicle for encouraging 
private sector investment in charter school facilities, into the CSP. 
This change will enhance administrative efficiency in the overall 
charter schools programs.
    But, time has passed since 2007, and it has been almost 10 years 
since the CSP was last reauthorized. These last several years have 
shown the charter movement additional key steps the federal government 
should take to incentivize improved state policy environments. One 
critical area where federal law is silent is on quality authorizing. 
Any reauthorization must include core elements of quality control 
around authorizing, including: priority criteria for a transparent 
charter application, review, and decision-making process; requirements 
for performance based contracts between schools and authorizers; 
comprehensive charter school monitoring and data collection processes; 
clear processes for renewal, nonrenewal, and revocation decisions; and 
oversight of all parties involved in chartering from the schools to the 
authorizers too. I strongly encourage the federal government to adopt 
measures to encourage states to hold all parties accountable in the 
chartering process. Too often the emphasis is on just one entity, but 
many parties are ultimately responsible and accountable for charter 
school success.
    The All-STAR legislation, includes many of the elements described 
above, and paints a comprehensive picture for how to move the federal 
charter programs forward. A critical new addition though is a 
significant focus on authorizer oversight and oversight of 
authorizers--highlighted by a priority criteria for states that have or 
will have in place policies for reviewing the effectiveness and quality 
of their charter authorizers, as well as additional priority criteria 
on charter schools having equitable access to pre-K and adult education 
funding streams; equitable and timely funding compared to traditional 
public schools, including facilities funding, that includes bonding 
revenues and millage revenues; options to be their own Local Education 
Agency; a renewed focus on charter autonomy including explicit 
requirements for written performance contracts that ensures charter 
schools have independent and skilled governing boards; and, a 
requirement for these successful, all-star schools to have in place 
plans to share their best programs, practices, or policies with other 
schools and LEAs. The bill moves federal statute in new directions as 
well, including allowing grant recipients to retain a portion of their 
grant in a reserve account to help cover the costs of expanding and 
replicating, even keeping the interest earned on the funds to help 
further the purposes of the program. IMPORTANTLY, this proposal unlike 
previous proposals is focused on rewarding the best charter public 
schools, enabling these entities to replicate and expand--a necessary 
plank of any reauthorized ESEA's support for charter schools.
    All of these proposals contain critical additions to the CSP and 
ESEA, and I strongly encourage the Committee to adopt them in its 
reauthorization legislation. Unlike the majority of programs in ESEA, 
the CSP has always been intended to drive state policy changes, and 
this emphasis must not be lost. It must however be modified to ensure 
it encourages the best policies for growing quality charter schools. 
The ideas embodied in the proposals outlined above are those elements. 
And, it is only with the right policy settings that charter schools 
will fully be able to succeed.
    Today, over 600,000 children are on charter school waiting lists 
across the country, enough demand to create over 2,000 new average 
sized charter schools.\2\ And, with growing bipartisan support, demand 
from parents and grassroots activists, charter schools not only afford 
parents and children new high quality public school options, but can be 
a dramatically effective tool in our nation's education reform efforts.
---------------------------------------------------------------------------
    \2\ National Alliance for Public Charter School Research.
---------------------------------------------------------------------------
    In Los Angeles, the school board recently approved a plan to turn 
over 250 campuses to charter schools and other independent school 
operators. This was a powerful showing from our nation's second largest 
school district that charter schools have a critical delivery role to 
play in educating its children, and it clearly showed that charters are 
having a competitive effect on traditional public schools. In New York 
City, the Chancellor there is planning to have 200 charter schools by 
the 2013-2014 school year educating approximately 100,000 children--a 
full \1/10\ of our nation's largest school system's children. But, 
beyond large urban school districts, in communities and locales across 
the country, charters are opening up and serving students and families 
who want and need them. In fact, of the almost 5000 charter schools, 54 
percent are in urban areas, 22 percent are in suburban communities, 
approximately 9 percent are in towns, and 15 percent are in rural areas 
according to the National Center for Education Statistics Common Core 
of Data for the 2007-2008 school year. Charter schools provide parents 
and communities across the country--from the largest city to the most 
rural--true local control over their public education, they afford 
parents a choice and they are accountable for their performance. 
Whether in rural locations benefitting from online schooling or as in 
the Los Angeles neighborhood of Granada Hills, where the Granada Hills 
Charter High School in 2003 converted from a traditional public school 
to a charter school and became the largest comprehensive independent 
conversion charter school in the nation, charters are meeting the needs 
of communities across America.
    Another example of charters meeting the needs of the local 
community, is the Alliance for College-Ready Public Schools in 
California (For more information on this network of schools, please see 
Appendix I). With significant expansion and replication plans, the 
Alliance has had to rely on private fundraising and philanthropic 
support to replicate and expand, and currently is on track to run 20 
schools in Los Angeles, making it the largest operator of charter 
schools in LA. The Alliance for College Ready-Ready Public Schools has 
thrived since opening its first schools nearly six years ago, 
consistently posting test scores and attendance rates that far outpace 
surrounding district schools. Expectations and demands on students and 
teachers are high, with an extended school day running from 7:45 a.m. 
to 3:30 p.m. as well as mandatory after-school and weekend classes for 
struggling students. All students are required to complete a rigorous 
course-load of college-preparatory classes and must repeat any classes 
in which they earn less than a C. Enrollment at high schools is limited 
to 500 students, and fewer at middle schools, while the ratio of 
students to teachers in classrooms does not exceed 25 to one. Many of 
the Alliance schools also use online learning to broaden the curriculum 
and offer individual students the opportunity to make up courses they 
failed the first time.
    The early results have been impressive, with nine of every 10 
Alliance students who enrolled as ninth-graders expected to enroll in 
two-or four-year colleges. In 2008, the Alliance launched a 
performance-based incentive program, in which teachers and 
administrators received salary bonuses when their students hit 
performance targets, merging many of today's most promising education 
reforms under one roof--autonomy as a public school in exchange for 
high stakes accountability, an ability to reward excellent and 
effective teachers, a longer school day, and rigorous expectations for 
all students enrolled in the school. Expanding the number of Alliance 
schools would send more historically underserved students to college, 
students who would otherwise be pushed out of high school by low 
expectations and a tragic lack of rigor or support.
    As evidenced by this hearing, there is strong rationale and support 
for the growth of high quality public charter schools like the Alliance 
for College-Ready Public Schools. Never before has there been such 
strong support from policymakers across the political spectrum for the 
replication and expansion of our best models. Federal policy should 
support this activity, but it must also continue to support the 
creation of new quality charter schools. Undoubtedly, the federal 
support for charter schools has been critical in taking the movement 
from 60 schools in 1994-1995 to almost 5000 in just 15 years, and it 
has been invaluable in shaping state policies that govern charter 
schools. As ESEA is reauthorized, the past objectives must be married 
with the new goals and work together to push simultaneously the 
expansion of our best charter models.
    As evidence for the strong bipartisan belief in charter schools, 
the President has included significant support for them in his fiscal 
year 2011 budget request. While I am excited about the opportunities 
stemming from this request, there is cause for concern. Included in the 
Administration's fiscal year 2011 budget is a proposal to support the 
growth of ``autonomous public schools'' in addition to charter schools. 
Although the charter school movement considers this on one hand a 
success, that traditional public schools are reacting to the pressures 
from public charter schools and are adopting successful practices from 
charters, I am concerned that the federal charter school funds will 
lose their purpose. These programs were established to support the 
growth of public charter schools, and although the Administration 
proposes many exciting ideas via its consolidation of programs in the 
fiscal year 2011 Budget's Expanding Educational Options category, 
including a way to combine support for growing high quality charter 
schools with ensuring parents have the information necessary to know 
about their choices (supply and demand), the new ability to fund 
autonomous public schools lessens the impact of the federal charter 
school programs. Furthermore, even the most successful examples of 
autonomous public schools, the Pilot Schools in Boston, are not 
achieving at the same success rates as Boston's public charter 
schools.\3\ According to ``Informing the Debate: Comparing Boston's 
Charter, Pilot, and Traditional Schools,'' a report prepared for the 
Boston Foundation, Boston's public charter schools are doing 
significantly better than pilot and traditional public schools in 
raising student achievement. This includes results from randomized 
studies designed to reduce the possibility that charters might benefit 
from having more motivated students or parents.
---------------------------------------------------------------------------
    \3\ http://www.tbf.org/uploadedFiles/tbforg/Utility--Navigation/
Multimedia--Library/Reports/InformingTheDebate--Final.pdf
---------------------------------------------------------------------------
    The federal charter programs were designed to support the growth of 
public charter schools because state and local governments do not 
provide funding to support new charter schools. State and local 
governments already provide funds for the creation of new traditional 
public schools, including autonomous public schools. Besides being 
duplicative of current state and local funds, it is difficult to 
envision the Department of Education ensuring that all ``autonomous 
public schools'' receiving funding under this new authority are truly 
autonomous public schools. Furthermore, the achievement results of 
these schools are in many place is less than charter schools. And, 
although the Department has set out ambitious targets for what an 
autonomous public school would be, I await additional details on this 
proposal.
    I do understand though that the Administration and Congress want to 
examine all possible promising education reforms. And, I look at the 
push for truly autonomous public schools as a validation of charter 
schools having a systemic impact on public education. However, when 
ESEA is reauthorized, if it includes a new push for autonomous public 
schools in addition to public charter schools, it must ensure several 
things. In the current Congressional Budget Justification for the 
FY2011 ED Budget, the Department defines autonomous public schools as 
``* * * charter and other public schools that have autonomy over key 
areas of their operations, including staffing, budget, time, and 
program and are subject to higher levels of accountability than other 
public schools.'' \4\ Congress must establish clear guidelines and 
principles for states that set out clear definitions for all these 
terms, and ensure ``that higher levels of accountability'' means 
closure for not meeting academic performance objectives. Clearly 
defining and defending these terms is critical for these schools to be 
successful.
---------------------------------------------------------------------------
    \4\ http://www2.ed.gov/about/overview/budget/budget11/
justifications/f-iit.pdf
---------------------------------------------------------------------------
    A lesson can be clearly learned here form charters. Charter schools 
around the country are facing regulatory creep, where third parties are 
unfortunately infringing upon their autonomy. For instance, in 
Baltimore, KIPP Ujima Village which is Baltimore's most successful 
middle school, with its students consistently achieving some of the 
highest test scores in the state may have to dramatically alter its 
successful program because the Baltimore Teacher's Union is demanding 
dramatically higher pay--something that hasn't been a concern of the 
Union for the past seven years the school has been operation. Despite 
the fact that the school's teachers are already among the city's 
highest paid (on average receiving 18 percent more than the salary 
scale) the union is demanding 33% more than the salary scale. In 
Arizona, the state attempted to align charter schools teaching 
schedules with ones imposed on traditional public schools. Ultimately, 
a settlement was reached and the state did not impose a rigid annual 
schedule for instructing students. Clearly though, this is an example 
that in even some of the most ``progressive'' charter states, attempts 
are constantly being made to ``standardize'' charter schools in the 
name of alignment.\5\ These efforts to create a ``level playing field'' 
by handcuffing charters are backwards. I would instead recommend 
removing the handcuffs from non-chartered public schools and increase 
their accountability.
---------------------------------------------------------------------------
    \5\ http://www.azcentral.com/arizonarepublic/local/articles/
0804charter0804.html
---------------------------------------------------------------------------
    Another example comes from Wisconsin, where ``charter schools'' 
were established as programs within traditional public schools and used 
as a revenue source via the federal charter programs rather than as new 
schools. When the federal funding expired or was exhausted, these 
``charter schools'' were absorbed back into the district. This practice 
stems from a lack of clear state law on the independence of charter 
schools, and federal law must take steps to prevent states from 
``gaming the system.''
    As the committee moves forward with potentially marking up this 
legislation and considering additional ESEA ideas with the goal of 
reauthorizing the statute, I know the national charter school movement 
stands ready to help support an ambitious agenda for reforming and 
improving our nation's public education system. In the discussions that 
surround this goal though, there are critical elements that must be 
adopted to ensure charter schools can meet the Committee's objectives 
as a powerful education reform vehicle.
    Congress must develop significant and wide-ranging policies for 
replicating and expanding our best charter schools. By increasing the 
capacity of these ``all star'' schools to serve more students, we will 
dramatically improve our nation's high school graduation rates and 
importantly our college attendance and success rates. As highlighted by 
the recent EdNext study conducted by Kevin Booker, Tim Sass, Brian 
Gill, and Ron Zimmer recently, ``charter schools are associated with an 
increased likelihood of successful high-school completion and an 
increased likelihood of enrollment at a two-or four year college is two 
disparate jurisdictions, Florida and Chicago.'' \6\ Although this 
examines just two jurisdictions, it clearly reinforces the necessity of 
policies being structured to ensure charter school success.
---------------------------------------------------------------------------
    \6\ http://educationnext.org/the-unknown-world-of-charter-high-
schools/
---------------------------------------------------------------------------
    In the name of scaling up though, the charter concept must remain 
true to its objectives and goals; public charter schools must remain 
autonomous public schools that are held accountable for their results. 
They must have control over their budget, personnel, programs, and 
other elements critical to their success. Watering down the charter 
concept in the name of scaling will not achieve the success Congress 
wants nor the public demands from public schools.
    I have greatly appreciated the chance to speak to the Committee and 
its Members today, and I will gladly take any questions you may have.
   appendix i--information on the alliance for college-ready public 
                                schools

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Chairman Miller. Thank you very much.
    And thank you to all of you for your testimony.
    It has been mentioned by a couple of you that this is part 
of our beginning the process of--and Congressman Castle 
mentioned this--of the reauthorization of the Elementary and 
Secondary Education Act.
    And this is part of a larger set of questions in hearings 
about what are the tools and assets that are available to 
districts as they think about going through the process of 
improving their schools, reconstituting their schools.
    We had sort of strict plans, annual plans, that districts 
had to go through under No Child Left Behind. They didn't seem 
to work very well. And I know that the administration has 
talked about reconstitution of schools and what that means.
    And really, Mrs. Lake, we are following your research--
there really has to be a portfolio of tools--options available 
to school districts and they--there is different fits in 
different places.
    But clearly, charter schools are a very important part of 
that--of that portfolio, so--just so people have the context of 
this hearing.
    I would like to--my time is limited, like your time was 
limited.
    But, Dr. Hehir, in your testimony--and I am--Eva, you said 
you had about 14 percent special ed.
    Ms. Moskowitz. Eighteen.
    Chairman Miller. Eighteen percent. So you are going to be 
included in this question.
    Low participation rates raise potential civil rights 
issues. Students with disabilities, English language learners 
and homeless students have rights as American citizens both 
granted them under the Constitution and within various federal 
education laws.
    And then in the next paragraph, you say the experiment for 
charters represents--the experiment that charters represent is 
compromised when charters do not serve the same populations as 
traditional public schools. If they fail to serve 
representative populations, their claims of being exemplary are 
significantly compromised.
    You then go on later in your testimony--and I think this is 
the tension here--it is important to emphasize here that states 
should be allowed the flexibility as there should not be 
expectations that charters always mirror the population of the 
surrounding area.
    That doesn't mean that those populations don't get served. 
It means that particular school, as in public schools in some 
cases, traditional public schools.
    And you make the very, I think, important point--and part 
of this tension is that these innovations should not be 
discouraged. The point here is that states need to reasonably 
assure the federal government that special populations' access 
to charter schools is not impeded.
    Clearly, under 94-142, that is the law of the land. Now, 
how you serve those children we do give flexibility and options 
because of the different needs of different populations.
    Dr. Ahearn has just talked about the technical assistance 
that could help school districts, help states and others, to 
develop this as we move to a more of a portfolio model, if you 
will, in helping those students achieve high educational 
outcomes.
    So I want to raise that issue--and, Mrs. Lake, this is part 
of the portfolio issue for you, too--on how do we reconcile 
those--that inherent tension here, because as we know, in many 
instances, those populations aren't represented here.
    That may be because of parental choice, that they chose not 
to--not to go there, they have chosen another educational 
opportunity for their--for their children and their students--
the parents might have.
    Mr. Hehir. I think Mr. Richmond's testimony actually spoke 
to this, and I----
    Chairman Miller. Right.
    Mr. Hehir [continuing]. I think it is very important to 
address this issue on the authorizing level, and--because 
states vary tremendously on how they authorize charter schools. 
Some pay a lot of attention to the--serving kids in a way that 
is consistent with federal law. Others do not.
    And I think that the--that, number one, these authorizing 
regulations should be reviewed by the secretary of education 
and approved by them--by him, because we do that with special 
education regulations, and we should do that with charter 
schools, in my view.
    But also, I think another piece of this is that states 
should be able to demonstrate to the secretary that they are 
assisting charter schools.
    So on the one hand, we want to make sure that there are not 
barriers to parents being able to choose charter schools, but 
also that states are assisting charter schools, because there 
are charter schools--and I have done some research in three 
charter-like schools in Boston--that do an absolutely terrific 
job of serving diverse populations of kids with disabilities.
    Chairman Miller. Dr. Moskowitz? We have all got to live 
inside my 5 minutes, so----
    Mr. Hehir. I am sorry. I am sorry.
    Ms. Moskowitz. Well, I would just say that I was very 
involved in the first charter school for autistic children in 
New York City, and one of the first problems we had was that 
they said you couldn't select kids who were autistic. So you 
know, that creates challenges, and that speaks to your point.
    We were able, through several years of going back and 
saying, ``Look, we want to serve our autistic children. We have 
got to be able to select.'' And there are many different types 
of autism, and any given school may not be able to serve every 
child with that very, very broad label.
    The other thing, I think, to understand for high-performing 
charters--and going back to the replication bill--is that we 
are going to have to solve some of the funding issues and the 
bureaucratic issues.
    So I have 18 percent in my school. I have to serve children 
who have IEPs and, I believe, have special needs long before I 
get my measly check to educate them, because the bureaucracy--
it is the one area, special ed, where I am not free from a 
bureaucracy that has historically served children with special 
needs very, very poorly.
    Chairman Miller. Mrs. Lake?
    Ms. Moskowitz. So I have to wait a very long time.
    Chairman Miller. So how does this fit into the idea that 
these----
    Mrs. Lake. Right.
    Chairman Miller [continuing]. Children--that their 
opportunities won't be diminished in this portfolio as we think 
about school reform?
    Mrs. Lake. Right. So the districts that are embracing 
charter schools as a part of their reform strategy aren't 
looking at each school's special ed numbers and worrying about 
those numbers.
    What they are doing instead is they are looking at the kids 
and their community that they are trying to serve and trying to 
identify gaps in that service and fill those gaps.
    And so they might say, ``You know, our kids on the autism 
spectrum are being underserved by our district schools and our 
charter schools. Let's think about whether we can put out an 
RFP for a school to serve--to serve these kids well.''
    What they are also doing is sitting down at the table with 
their charter schools and their district-run schools to work 
out some strategies for support structures and application 
processes and things to work as a partnership.
    Chairman Miller. Thank you.
    Dr. Ahearn?
    Ms. Ahearn. I think it is really important to note that 
charter schools, when they are authorized, have to in their 
application describe a particular mission that they feel their 
school can address to meet needs in the area they are going to 
locate.
    That mission may or may not attract parents of students 
with disabilities. It is designed to put in place something 
that is missing in that area or that district.
    It is also important that districts that authorize schools 
take the time and participate in the marketing of that school 
as an option for people in their districts.
    And there are a lot of districts in this country--they are 
the largest number of authorizers are school districts, so it 
is really important that they are involved in recruiting 
students for charter schools.
    Chairman Miller. But is there not also the issue of parents 
who may select a charter school--they may select a traditional 
public school, but in some instances they are essentially 
counseled out of that selection.
    Ms. Ahearn. There is----
    Chairman Miller. And that may be on the level or it may not 
be on the level, I guess is my question.
    Ms. Ahearn. There is anecdotal information around that 
there is counseling out from--of students with disabilities 
from charter schools. There is the same kind of level of 
information about counseling in of students that a district 
doesn't want to serve itself.
    So this is all hearsay. There has really never been any 
kind of review of this. And I am sure some of it goes on, 
because you do hear about it. But in essence, the emphasis must 
be on the appropriate placement of the charter school in its 
district and the appropriate recruiting of students for that 
charter school.
    Chairman Miller. My time is running out, and I raise this 
issue not to put this burden on charter schools, but I raise 
this issue because I think what is important is to understand--
and we know that in many of the populations of students with 
disabilities, when they are properly matched with educational 
services, they thrive beyond what many people believe they are 
capable of achieving, and we have seen that to some extent on 
the Boston exams--I mean, the Massachusetts exams, where 
their--their performance.
    And I think we have to keep that in mind. And I think so we 
don't kill the innovation and the flexibility that we keep in 
mind this idea of portfolios, that there--how this population 
is served is the issue, not whether they are served in direct 
proportion to the attendance area or what you would 
traditionally think as the service area--geographically, I 
guess, is what I am trying to say.
    How we do that--we need your help. And so I just wanted to 
raise that issue at the outset, as one of the last surviving 
members of Congress who was here when we did 94-142. I still 
have a very, very strong commitment to that--to that 
legislation.
    So thank you.
    And now I recognize----
    Voice. Mrs. Biggert.
    Chairman Miller. Welcome. The gentlewoman is recognized for 
5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman. Had a little trouble 
here. And thank you for having this hearing.
    I was just looking at a couple of the bios and see that the 
two gentlemen were--have been in the Chicago school system and 
in Illinois, and I was in the Illinois legislature when we 
first put the charter schools--or came into existence there.
    And I can remember taking piles of paper to go to a 
national meeting with how the charter schools were created in 
Chicago, and I am glad to see that there is still an emphasis 
on that in Chicago.
    So I have got just a couple questions for--first for Mr. 
Richmond.
    Mr. Hehir has stated in the--that he believes in--charter 
schools do not serve equal percentage of students with 
disabilities--kind of goes back to this question.
    But, Mr. Richmond, you said in your testimony that it is 
the responsibility of the authorizers to ensure that the 
students with disabilities receive appropriate services. And 
how can authorizers draft better charters that ensure access to 
these students?
    And I guess authorizers, to me, is a new concept that 
obviously has just come into----
    Mr. Richmond. Sure.
    Mrs. Biggert [continuing]. Last year that was just put in, 
so----
    Mr. Richmond. Right.
    Mrs. Biggert [continuing]. Does that work to help to make 
sure that----
    Mr. Richmond. Right.
    Mrs. Biggert [continuing]. That the authorizers do this?
    Mr. Richmond. Authorizing is a new concept. It often in 
school districts has been noted--most school districts can 
authorize charter schools, but sometimes it is a state 
education department or a university or even others.
    Just to add briefly to the great conversation that has 
happened on special ed, one role of an authorizer, I believe, 
is to be actively involved in refereeing, if you will, being an 
intermediary between a charter school that has students that 
may need service and a special education department that has 
resources that could serve those students.
    One of the problems in this space is that there aren't 
enough special ed teachers, there aren't enough assistants, 
there isn't enough money for anyone. So there needs to be a--
including district schools.
    So there really is inside these school systems a very 
active role that needs to be played to try to make sure, if a 
charter school has a student that has a disability and needs 
services that those resources are being delivered to that 
school.
    When that doesn't happen, that is why you sometimes hear 
these anecdotes about counseling out, where a school says, 
``Well, I have tried to''--you know, to the parent, ``I have 
tried to get services for your student but we can't get them.'' 
And that sometimes causes the parent to go somewhere else where 
they can get it.
    So authorizers should be refereeing that activity, helping 
to connect the resources to the student.
    Mrs. Biggert. Okay. Is there any other suggestions that you 
have for making the authorizing method for charter schools more 
efficient and provide for more quality schools?
    Mr. Richmond. Well----
    Mrs. Biggert [continuing]. To refereeing with--in all 
instances, I guess----
    Mr. Richmond. Yes.
    Mrs. Biggert [continuing]. But not just disabilities that 
would----
    Mr. Richmond. You know, I like Dr. Moskowitz's analogy 
about adding a high-capacity lane to the highway--I mean, 
this--what the All-STAR bill--one of the things it is 
contemplating doing and which speaks to me is as we--as the 
charter sector gets more sophisticated and develops more along 
those lines, we need to make sure the public oversight related 
to that keeps pace with that.
    And that is to the point in my testimony that the federal 
government has done a terrific job supporting the growth of the 
charter school sector but has not put resources into that 
public oversight function, and that is a critical need, in our 
opinion.
    Mrs. Biggert. Okay. And then is it--and this is an issue, I 
think, that comes up a lot. Is it your understanding that 
charter schools should be subject to the same school 
improvement measures, like AYP processes and sanctions, that 
apply to other public schools under ESEA?
    Mr. Richmond. Yes.
    Mrs. Biggert. Yes. That is an easy answer.
    Would anybody else like to comment on that?
    Ms. Ahearn. I think it is important to note that charter 
schools are public schools. And as part of the public system, 
they need to comply with all of the requirements, especially 
the accountable for achievement. That is a big part of the 
federal NCLB law.
    Mrs. Biggert. Anybody else?
    Ms. Young. I served as both an authorizer and a leader of 
charter schools and strongly believe that the law is correct in 
holding charter schools to an even higher level of 
accountability, because with charter schools all of them have 
to be accountable to AYP, but they also have to be able to 
prove to their authorizer that they are doing the great work 
for kids that they promised in their charter.
    They also have to prove that to the parents, because if the 
parents leave the charter school, there is no more charter 
school. And so all those--these three things make very direct 
accountability.
    Mrs. Biggert. Do you think--well, how about the----
    Mr. Polis [presiding]. Do you want a quick final question? 
That is fine.
    Mrs. Biggert. No. All right.
    Mr. Polis. Okay.
    Mrs. Biggert. I will yield back.
    Mr. Polis. Thank you, gentlelady. Thank you for your 
questions.
    The gentleman from Virginia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Mr. Chairman, we have got several examples of excellent 
charter schools before us today, but it seems to me that we 
can't always assume that if we expand the number of charter 
schools they will all be as good as the ones we get.
    Let me ask anybody who wants to respond, if we expand, can 
we expect all of the charter schools to be good charter 
schools, or will some be good and some be bad?
    Ms. Young. The question----
    Mr. Scott. Dr. Young?
    Ms. Young [continuing]. If you don't--if I could answer, 
the--your question, the bill that is on the table today will 
allow us to actually have many more great charter schools 
opened than bad ones, because it is really focusing on 
expanding the grade levels and duplicating charter schools that 
are already a proven success.
    To give a specific example, two of my two younger daughters 
attended the Chime Charter School that was referenced before, 
which is a brilliant school that does special ed inclusion.
    Mr. Scott. Well, I mean, I am sure we could fund some good 
schools, but will we also----
    Ms. Young. No----
    Mr. Scott [continuing]. Be funding some bad schools?
    Ms. Young. But here is the point. Chime Charter School 
cannot grow. It is kindergarten through eighth grade. And 
because there isn't seed funding for them to add high school 
grades or replicate----
    Mr. Scott. Right. We will be doing some good schools. Will 
we also be funding some bad schools?
    Dr. Hehir?
    Mr. Hehir. I think so, because, again, charter schools vary 
tremendously. A bigger concern of mine would be unless the 
issue of underrepresentation of special populations is 
addressed in charter schools, the traditional public schools 
are going to have disproportionate numbers of those kids if you 
vastly expand the charter sector.
    So this issue needs to be addressed, I believe, in order 
for the charter school system to--and traditional public 
schools----
    Mr. Scott. I have a----
    Mr. Hehir [continuing]. Prosper.
    Mr. Scott [continuing]. Report from the Civil Rights 
Project at UCLA that suggests that if we have more charter 
schools we will have more segregation. Does anybody disagree 
with the findings in this report?
    And I ask unanimous consent that it be entered into the 
record.
    Mr. Polis. Without objection, so ordered.
    [The report, ``Choice Without Equity: Charter School 
Segregation and the Need for Civil Rights Standards,'' may be 
accessed at the following Internet address:]

http://civilrightsproject.ucla.edu/research/k-12-education/integration-
  and-diversity/choice-without-equity-2009-report/frankenberg-choices-
                        without-equity-2010.pdf

                                 ______
                                 
    Ms. Moskowitz. I was wondering if I could weigh in there. 
You know, it is very--obviously, it is a very, very important 
goal to have both racial and ethnic integration but also 
socioeconomic integration. This has been a long struggle in 
this country's history.
    You do have to understand that charter schools and 
operators come in to neighborhoods that are not integrated. So 
I operate in Harlem, and we are--by law must be reflective of 
the district. That is what our authorizer demands of us.
    Mr. Scott. Well, is that the law all over the country?
    Ms. Moskowitz. Every charter state has their own law. In 
the state of New York, we give preference to the district.
    Mr. Scott. Well, do you have information to--that would 
contradict what is in the report, that there would be a 
tendency toward segregation?
    Ms. Moskowitz. Well, I just think that there is a 
tremendous value in having schools in Harlem.
    Mr. Scott. Okay. Well----
    Ms. Moskowitz. Nineteen out of the 23 zone schools in the 
neighborhood----
    Mr. Scott [continuing]. I only have----
    Ms. Moskowitz [continuing]. Are failing schools, and so if 
I don't go into a neighborhood that is not integrated, I will 
fail to serve those kids. And that is a dilemma----
    Mr. Scott. Okay.
    Ms. Moskowitz [continuing]. That we face.
    Mr. Scott. Okay. Well, so segregation is just something we 
need to accept.
    Dr. Hehir, you are a professor doing research. One of the 
things that is--you do in research is try to isolate your 
variables, get control groups, try to replicate.
    The way we are funding charter schools and trying to find 
out what is going on--is this a good way to research charter 
schools?
    Mr. Hehir. The way we are funding them, Mr. Scott?
    Mr. Scott. The way we are trying to find out the ones that 
work and the ones that don't work. Are we doing good research?
    Mr. Hehir. I think you need to do two things. This is one 
of the reasons why I have suggested to the committee they 
consider a National Research Council study.
    We really need to get the data. There is a lot of--like Dr. 
Ahearn said, there is a lot of hearsay out there, and there 
certainly is evidence that in some places kids get counseled 
out of charters, but there is also evidence that in some places 
school districts, as Dr. Ahearn said, try to push kids into 
charters.
    We need to have--we do need to have a study that looks at 
the big picture. But however, the other type of research, which 
is research that I have conducted looking at successful both 
traditional public schools as well as pilot schools in Boston, 
which are charter-like, as it relates to serving inclusive 
populations of kids with disabilities, is also an important 
line of research.
    We need to be looking at what works. We need to be looking 
at the--at both traditional public schools as well as charter 
schools around what works.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Polis. The gentleman's time has expired.
    The chair recognizes the gentleman from Louisiana, Mr. 
Cassidy, for 5 minutes.
    Mr. Cassidy. (OFF MIKE)
    Mr. Polis. Could you put your mike on, please?
    Mr. Cassidy. This is really bipartisan. [Laughter.]
    Mr. Polis. My first time as chair, and the microphone 
breaks.
    Mr. Cassidy. I feel I should be at a wedding, crooning. 
Anyway.
    Thank you again for--from the people of Louisiana and thank 
you--thanks to Congress, because you took a school system which 
was awful, consigning people to a life of irrelevency and you 
have given them an opportunity.
    Now, based upon that experience, which I have a little bit 
of knowledge about, what would you say to Mr. Scott's question 
regarding the issues of segregation in the New Orleans Parish 
School System?
    Mrs. Lake. Right, thanks. I mean, I think your thanks are a 
little bit misplaced. I am not responsible for what is 
happening in New Orleans--just an observer.
    But as an observer, I think--and a researcher, I think that 
the important thing to think about when you are thinking about 
segregation and studies of segregation is that charter schools' 
concentration of students--minority students is largely a 
reflection of where they choose to locate.
    They choose to locate in urban areas that are very often, 
as in New Orleans, majority minority districts. And so if you 
just take a broad stroke look at kind of the state numbers of 
kids attending charter schools, it is easy to think that that 
reflects a segregative effect.
    What you want to do as a researcher is instead look at 
where the kids--the schools that the kids left to attend the 
charter school and then the charter school, and compare those 
two schools.
    When some researchers have done that--Ron Zimmer, Brian 
Gill and others--they find very little evidence of any 
segregative effect.
    Mr. Cassidy. Now, let me ask you--next thing regarding New 
Orleans--now, I am in Louisiana, so I am aware of this. The 
school system prior to Katrina was one that destined children 
for academic failure.
    And frankly, some of the impression back there was it was 
the restrictive work rules, it was the encroachment of the 
school board upon the autonomy of schools, et cetera, that 
frustrated people.
    And Paul Vallas, who is now the superintendent--doing a 
wonderful job, and he has changed that. I think one of the 
concerns on the Republican side is that as we suggest new 
regulations we may encroach upon the freedom that Vallas and 
others have used to create the school system, defeating the 
original purpose.
    Any comments?
    Mrs. Lake. Yes. I mean, it is always a fear with the 
charter school system that over time it will come to look more 
and more like the system that it tried to fix or change.
    And you know, it is a delicate balance. When we talk about 
performance accountability, we first go to the idea of 
regulation. If we can instead talk about performance outcomes 
and stay at kind of the high level, rather than regulating 
inputs, we are in pretty good shape, I think, with the charter 
sector.
    And I think Paul Vallas would probably agree with that.
    Mr. Cassidy. In fact, on the authorization aspect of it, 
Mr. Richmond, it almost seemed like if you take as your primary 
variable how the kids do, then everything else takes care of 
itself.
    I mean, if your dependent variable is that the guardrails 
are up, but the primary variable is do they get to--safely to 
the end of the road, then that seems like a better way to 
approach the problem than having, you know, the traditional way 
of----
    Mr. Richmond. Right.
    Mr. Cassidy [continuing]. A 360 microscope.
    Mr. Richmond. Well, I think that is right. And you want to 
make sure that whatever we all talk about and have these good 
discussions that that is our ultimate objective. Are we doing 
things that help more kids get a better education and go on to 
succeed in life?
    And we want to have those guardrails on the side so we 
don't lose kids along the way. We want all kids to be able to 
get there.
    Our organization has done a lot of work in New Orleans with 
Paul Pastorek and with Paul Vallas. And what has struck me is 
the comparison. That was a closed system before the hurricane. 
There was really not energy, not vitality. There wasn't 
community engagement in public schools. It was closed. It was a 
closed bureaucracy.
    And what you have seen happen is the charter sector has 
opened it. The level of community engagement in public 
education in New Orleans now is astronomically higher than it 
was before. It didn't exist before. How----
    Mr. Cassidy. And that crosses all socioeconomic----
    Mr. Richmond. Absolutely. Absolutely. These are schools 
that are in communities throughout the entire city serving the 
populations of the entire city and involving in a much more 
open way and, most importantly, better results for kids.
    Mr. Cassidy. Now, let me ask you--you or Mrs. Lake--you 
have both done research there, apparently. There is a concern 
that we may fund bad schools. Now, it is my understanding, 
though, that the charter schools in New Orleans that are 
performing poorly are being shut down or changed over, is that 
correct?
    Mr. Richmond. It is a legitimate question about are we 
going to have more bad schools potentially. There is no 
guarantee in this. There could be, and there will be in the 
future, schools that open that aren't as good as we want. That 
absolutely will happen. It happens in the district sector and 
it happens in the charter sector.
    The key is the charter sector is better at closing those 
schools. In the district sector they continue on indefinitely.
    Mr. Polis. The gentleman's time has expired.
    The chair recognizes the gentleman from Texas, Mr. 
Hinojosa, for 5 minutes.
    Mr. Hinojosa. Thank you, Acting Chairman Polis.
    I want to commend Chairman Miller, thank him for having 
this hearing on H.R. 4330, entitled The All Students Achieving 
Through Reform Act.
    As we move to increase educational opportunities for all 
students, it is critical, in my opinion, to ensure that all 
children have access to a high-quality education. Furthermore, 
this includes our public charter schools.
    I commend Congressman Jared Polis for his leadership to 
author this bill.
    I have two questions for Professor Thomas Hehir. In your 
testimony, you mention that students with disabilities and 
English language learners participate in charters in much 
smaller numbers than they exist in the student population at 
large.
    Based on your expertise, give me the two percentages, one 
on ELLs who currently participate in public charter schools, 
and the percentage estimates for ELLs with disabilities in 
charter schools.
    Mr. Hehir. I don't--and nor do I think anybody can give you 
the overall numbers as far as that is concerned. My research is 
in specific communities. And this is, again, one of the reasons 
why I think you need to have a study that really looks at these 
issues systemically across the whole country.
    But in the communities that I have looked at--Boston, San 
Diego, Los Angeles--the percentage participation of children 
with disabilities is significantly below what exists in 
traditional public schools, and there are very little to none 
children with significant disabilities being served in them.
    And that raises very serious concerns, in my way of 
thinking.
    Mr. Hinojosa. Okay.
    Mr. Hehir. The same is true with----
    Mr. Hinojosa. Time is of the essence, and I will interrupt 
you.
    Mr. Hehir. Well----
    Mr. Hinojosa. I will wait to see if there is some studies 
done on that--on the answers to my questions.
    Can you elaborate on one other recommendation you made that 
the federal government possibly require states to proactively 
address issues of access involving special populations as a 
condition for receiving federal funds? Give me your thoughts.
    Mr. Hehir. Well, again, my thoughts about this are informed 
by my experience in the area of special education, where it 
wasn't until the federal government stood up to the plate and 
insisted that all children be educated that they were.
    And the special education--the federal involvement in 
special education has, I think, been very positive. And so in 
my view, the--given that what we know about underserving of 
these populations, it is important for the federal government 
to play a role in this, both in terms of making sure that 
states monitor this issue, but also in--equally important, in 
my view, is states assisting charters in addressing this issue.
    Mr. Hinojosa. I want to state that I served on the state 
board of education in Texas and was chairman of special 
populations committee, which included bilingual education 
students, gifted and talented, children with disabilities and 
migrant and seasonal farm workers' children.
    And I found that the mindset there was that the smallest 
percentage investment of our budget went to the special 
populations. And so I met with parents and they just couldn't 
understand how we didn't give them same opportunities as 
needed.
    So I agree what you are saying, and I want to follow up 
with you later on.
    My next question is to the first panelist, Dr. Moskowitz. 
Yesterday Univision plus several other groups, including the 
Bill and Melinda Gates Foundation, the U.S. Department of 
Education, many Latino leaders and community-based 
organizations launched the Es El Momento, which translates into 
The Time is Now Campaign.
    This is a multimillion-dollar, 3-year national education 
initiative aimed at increasing high school graduation rates, 
college readiness, college completion and engaging Latino 
parents in the education of their children.
    So can you tell me what strategies have public charter 
schools used to engage low-income children and the minority 
parents in the education of their children?
    Ms. Moskowitz. Thank you for your question. We serve at 
Success Academy charter schools--where all of our schools are 
Title I schools. And I just came from a meeting yesterday 
morning where we have 514 children at one of my schools, and we 
had 507 parent representatives. We had a few women go into 
labor so they were not there in the morning.
    But we have enormous parental involvement in our schools, 
and we are often asked, ``Well, how do you get on a math 
night--how do you have 100 percent attendance?'' And it takes a 
lot of hard work and a lot of relentlessness on the part of 
teachers and school leaders.
    But we say to parents from the get go something that I 
think has gotten lost in America, that----
    Mr. Hinojosa. I apologize. Time has run out, and there are 
other members that need to ask--have time to ask their 
questions. Thank you for your response.
    Mr. Polis. And I remind members of the committee that 
questions can be submitted in writing up to 24 hours, and the 
panel will answer those for the record--14 days you have to 
submit those in writing.
    I thank the gentleman from Texas.
    And the chair now recognizes himself for 5 minutes. Would 
that it were more time.
    I have also been informed, by the way, that we will have 
votes starting at about quarter till, perhaps a little after, 
so this committee will probably go until right before noon. We 
will not be reconvening, so I will ask all members to stick 
within their 5 minutes. Try to be a little bit briefer if at 
all possible.
    I will start with a couple of quick questions.
    Dr. Moskowitz, you mentioned that your school has about 18 
percent special education. How does that compare to the rate 
for New York City or the state of New York?
    Ms. Moskowitz. In charters or the district?
    Mr. Polis. For the district.
    Ms. Moskowitz. Well, in our co-located buildings, we are 
higher than three of the four schools.
    Mr. Polis. Okay. The next question is a follow-up question 
for Dr. Ahearn. And a couple of you mentioned counseling in. I 
am well aware of that and have experienced that in the charter 
schools that I ran.
    I would like you to define that for the committee and talk 
about that practice.
    Ms. Ahearn. Well, when parents are--have a child who is 
having difficulties, that parent will frequently go to the 
traditional school and talk with a counselor and say, you know, 
``What is best for my child,'' or, ``What can we do to help?''
    And rather than trying to perhaps plan a program within the 
traditional school, it is not uncommon for a counselor or 
anyone that parent speaks to to say, ``Why don't you take your 
child to another school?'' And it may be a good recommendation. 
It may not be.
    We don't know a lot about how this happens, but we know it 
happens because we have had charter schools complain that 
students come because the counselor told me to come here.
    Mr. Polis. Would you say it sometimes happens that students 
are counseled that the district feels--the districts might not 
want to serve students that they feel are more expensive to 
serve? Is that what you feel might be at play?
    Ms. Ahearn. I don't know if it is more expensive to serve 
or more difficult to serve, because some children are more 
difficult to serve than others.
    Mr. Polis. Thank you.
    The next question is for both Dr. Ahearn and Professor 
Hehir. With regard to economic equivalency--and so while some 
charter schools might not serve the same percentage or might 
serve higher percentages of special ed students, there are some 
agreements or charters that establish economic equivalency in 
that--and, for instance, in examples of charter schools that I 
started, New America School, it pays a set special education 
amount to the district who then handles the special education 
needs for the charter.
    And I am wondering if you can comment briefly on the--how 
effective or widespread that sort of practice is.
    Ms. Ahearn. The practices vary greatly by state. And one of 
the models, as you just explained, is commonly called an 
insurance model, where a charter school has to pay a certain 
amount to its authorizing district per student, and then the 
authorizing district is responsible for taking care of special 
education in that school, but the charter school usually has 
very little, if any, control over making that happen.
    In other cases, funding is done on a completely different 
basis.
    Mr. Polis. And my question for Professor Hehir would be is 
that a reasonable or fair way to do it, given that, of course, 
this is a network, the needs of a student might be best met 
somewhere else?
    Is this type of economic equivalency, where you can make 
sure that it makes economic sense, a fair or reasonable way to 
do it?
    Mr. Hehir. I think in theory it is. I think one of the 
issues around serving kids with disabilities in charter schools 
is if you give parents the true choice of charter schools, 
there will be parents who will want to enroll their children in 
charter schools that may have expensive and unusual needs that 
the charter school is not able to meet.
    It is not that they don't want to. They are unable to meet 
it. Charter schools----
    Mr. Polis. As, I might add, might be many other schools in 
that district that are public schools.
    Mr. Hehir. Exactly, but the public schools have the backup 
of the school system.
    Mr. Polis. Right.
    Mr. Hehir. And charter schools do not. Having a mechanism 
like you described I think is very important, whether it is 
something that is created by charters themselves in 
collaboration with one another or it is created by the state or 
the local school district.
    I think that type of mechanism is central here.
    Mr. Polis. Thank you.
    I would like to also respond briefly on the issue of 
segregation. I believe that this bill can help reduce 
segregation by giving a preference to schools that serve low-
income students, particularly through cooperative agreements, 
including transportation.
    I would also like to share with our committee briefly the 
experience in our district of the Ricardo Flores Magon Academy, 
which is a K-8 school that has a longer school day, 5 hours of 
core subject instruction, summer enrichment, daily tennis and 
chess lessons, and the results really speak for themselves.
    First of all, it has 93 percent free and reduced lunch, 
higher percentage than the school district; 90 percent Latino; 
and 80 percent English language learners. Its student outcomes 
are, simply put, incredible and transformative.
    Ninety-three percent of the third graders scored proficient 
or advanced in reading, compared to 73 percent for Colorado. 
And each student, every student, 100 percent of third graders 
scored proficient or advanced in math, compared to 69 percent 
of Colorado.
    And again, while the school is 90 percent Latino, and the 
district is slightly less than that, these students are 
achieving, and that is why students choose that school.
    You have a sometimes cross odds of economic diversity and 
ethnic diversity. We have another successful charter school in 
Pueblo, Colorado, Cesar Chavez Academy, that had very 
successful test results, started out at a--very high percentage 
Latino.
    As all the parents saw that it had very good test results, 
it attracted a lot more white families. So it became less 
segregated but it served less at-risk kids as a result. So you 
can't have it both ways sometimes.
    I think that charter schools that have as a goal serving 
diverse communities are what this bill seeks to fund.
    With that, my own time has expired.
    And I would like to recognize the gentlelady from 
Washington, Mrs. McMorris Rodgers, for 5 minutes.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman.
    I have a number of questions, too. I wanted to start with 
Dr. Moskowitz, and I just wanted to ask you to talk a little 
bit more about the autonomy at the charter schools and why that 
is so important, and maybe give us an example.
    And then I had--my second question was you also mentioned 
that in the last 50 years that we have really increased funding 
for our educational system but yet we aren't seeing the 
outcomes associated with that increased spending. And I wanted 
to ask if you would give us an example of how you are able to 
do more with less.
    Ms. Moskowitz. Sure. Well, my example of the freedom that 
gets to the heart of teaching and learning is the New York City 
contract, teachers union contract, gives one 50-minute prep 
period a day. We give our teachers three, minimally. Sometimes 
it is four.
    But we expect an incredibly high level of preparation. I 
don't think that the teachers union contract giving one 50-
minute period could result in high levels of preparation, so 
that would be one, but there are many, many other examples.
    In terms of spending, I am most familiar with the details 
in New York City, but we went from $15 billion--in the year 
2000, a $15 billion operating budget to a $21 billion operating 
budget today.
    Charters have not been the beneficiary of all that money. 
We get significantly less than the district. We get $12,443 and 
the buildings that I am co-located with get between $19,000 and 
$21,000 a child. So there is a wide disparity in funding.
    How we are able to do it--and the ``it'' is important to 
understand. It is a longer school day, a longer school year. We 
go 6 days a week starting in second grade, and we go from 7:30 
in the morning till 4:30; if you are struggling, from 4:30 to 
5:30. Meanwhile, we are offering art, music, chess, dance, and 
every kid plays a team sport.
    We are able to do that with larger class sizes, frankly. I 
have 28 in kindergarten. And we are able to do that because we 
aren't subject to a Soviet-style procurement system, and that--
if you look at the New York City school system, how they find 
basketballs for the amount of money they pay for basketballs, I 
don't know, because I haven't been able to find them for that 
price. We are able to be nimble about our procurement.
    Mrs. McMorris Rodgers. Great. Great. Thanks.
    Mrs. Lake, I wanted to--I was intrigued that you were--your 
center is at the University of Washington, as I come from 
Washington State, and we have not been successful in allowing 
for charter schools in Washington State yet--served in the 
state legislature during some of those debates, and I know that 
we have--we battled this issue for many years.
    And one of the arguments used against charter schools was 
that they would cream the best, and especially in high--and 
take away from those that have high needs. I find the 
discussion related to special needs to be very interesting.
    I have a son with special needs, so I am starting--he is 
three, so I am just starting through this whole process, and I 
must admit I am looking for options right here in D.C. because 
I want those options for my son.
    But can you just speak to the high needs--meeting the needs 
of a high-need area, especially as it relates to--and how 
charter schools can do that?
    Mrs. Lake. Right. Well, we are not only fellow 
Washingtonians, but we are also fellow moms with special need 
kids.
    Mrs. McMorris Rodgers. Oh.
    Mrs. Lake. So we are bonding. [Laughter.]
    On the question of creaming, I mean, that was one of the 
earliest concerns about this charter school movement. I think 
at this point we don't hear a lot of discussion about it, 
because the facts just haven't panned out to support the idea 
that charter schools would go after the elite kids in 
districts.
    You know, overall, charter schools tend to serve much 
higher numbers of minority and kids who qualify for free and 
reduced lunch. And then when you make kind of apples to apples 
comparisons in the districts where they are located, they tend 
to be basically on par or more aggressively serving those kids.
    And the reason is if you think about it from the 
perspective of somebody who wants to open a school, it is hard 
work, doesn't pay very well. Folks like Dr. Moskowitz are not 
going to go into the business to serve kids who are already 
being well served.
    And the kids who are coming to charter schools are not 
coming to charter schools to escape, you know, a high-
performing school. They are coming to escape a low-performing 
school. So I think, you know, it is really time to put the 
creaming argument to rest.
    I think there are some second generation issues with the 
charter schools that--with special needs----
    Mr. Polis. The gentlelady's time has expired.
    Mrs. McMorris Rodgers. Great. Great. Thank you.
    Mr. Polis. I would like to encourage--strongly encourage 
committee members to, if possible, stick to 3 minutes so that 
everybody can get in. You are really recognized for 5, but try 
to keep it below that if possible.
    With that, I would like to recognize the gentleman who cast 
his 20,000th vote in the United States Congress yesterday, my 
esteemed colleague and chair of the subcommittee, Mr. Kildee of 
Michigan.
    Mr. Kildee. Thank you, Mr. Chairman. And some of those 
votes were right.
    In my home state of Michigan, students attending 
traditional public schools outperformed those attending charter 
schools in the Michigan math and English language arts test 
over the last 4 years, by 10 to 21 percentage points.
    I find this data alarming. While there may be some model 
charter schools, in my state, on average, these schools are not 
producing results as good as the traditional public school 
system.
    Now, I know, just--I know Michigan very well, having lived 
there 80 years--that one of the reasons, obviously, in Michigan 
is that the charter schools are concentrated in your older 
industrial cities that are in some degree of decay.
    You don't find many charter schools out in the wealthier 
areas, so that is one of the factors why the--they are not 
performing as well as the public school system.
    I will start with you--let's see--Mr. Richmond first, then 
Mr. Hehir. What other reasons might there be that they are not 
performing as well as the traditional public school?
    Mr. Richmond. One reason is that in some places weak 
proposals for charter schools are approved that should never 
have been approved in the first place.
    We know a lot more now in 2010 than we did 15 years ago 
about how to evaluate someone who wants to start a school and 
how to do a better job of making the right picks, how to 
approve more good schools and not approve weak schools. We 
didn't know how to do that very well when this all started. We 
now know how to do that much better than we did before.
    The challenge is we do have excellent schools around the 
country, but then we had schools that were approved 10 or 15 
years ago that maybe they shouldn't have been, but now they are 
here. And we need to--they either need to improve their 
performance or need to be closed.
    So one of the roles of the authorizer, first, is to make 
those selections like your voting record--get it right as often 
as possible, right? And then, after the schools are running, 
the authorizer should be enforcing those high standards and 
allowing good schools to stay open, supporting the creation of 
more good schools and closing those that are not delivering a 
high-quality education.
    Mr. Kildee. Mr. Hehir?
    Mr. Hehir. Again, I think that the studies in this area are 
all over the place. I mean, one of the better controlled 
studies which was done in Massachusetts by a colleague of mine 
at Harvard, Tom Kane, compared people who were successful--
children who were successful in charter lotteries with children 
who were unsuccessful in charter lotteries.
    So this, in other words, is apples to apples. And he 
actually found that the charters were performing at a higher 
level, not a lower level. So I think these studies are all over 
the place, and I think that is one of the reasons why it is 
important to do some much more extensive research in this area, 
in my view.
    And I think that the Congress and this bill supports that.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Polis. Thank you.
    The gentleman has yielded his time back.
    To make sure that everybody gets in, we will be setting the 
timer to 3 minutes, and I ask my colleagues to ensure that the 
rest of their colleagues can speak that they get their comments 
and questions in in a 3-minute period.
    With that, the chair recognizes the gentlelady from 
California, Ms. Chu, for 3 minutes.
    Ms. Chu. Thank you, Mr. Chair.
    I was interested, Mr. Richmond, in your statement on the 
necessity for improving the process for authorizing charter 
schools. And I am in particular concerned about English learner 
students. I represent a district in California with many of 
them.
    And in California, they are looking at data with regard to 
English learner students and thus far it shows that charter 
schools are enrolling fewer English learners than traditional 
schools, and many do not differentiate their program or their 
instruction to address the various English proficiency levels 
of their students.
    And there is also a study that just came out for 
Massachusetts which identified several significant issues 
regarding how charter schools are not meeting the educational 
needs of English learners. And it reveals that fewer English 
learners and fewer recent immigrants are enrolled in charter 
schools.
    And there are also some concerns that charter schools are 
only keeping the best students and counseling ESL students back 
to public school.
    Can you tell me whether charter schools are subject to the 
same data collection in terms of attrition and also data on 
English learner students, as well as the other kinds of data, 
including gender and race?
    And should this data reporting be in the reports that are 
submitted by charter schools, especially as its relevant to 
authorizing?
    Mr. Richmond. Sure. A common theme developing around the--a 
need for better data, better research, and I would echo and 
reinforce that strongly.
    What we have seen across the country--that there isn't a 
single charter school sector. There are 41 charter school 
sectors, 41 different states, each with their own different 
laws, their different practices, their different requirements 
around data collection, their different habits around who is 
paying attention, if anyone is paying attention.
    And some states do this work well, and some do it much less 
well. So to your point specific--well, we want to learn from 
those that are doing well and help replicate what works. So I 
think it is important to realize that we have that opportunity, 
that we can see what does work well and try to replicate that.
    To English language learner students, one of my 
experiences--when we did this in Chicago, one of the great 
benefits from the beginning we didn't fully understand at the 
time is that we included all the kids in the charter schools in 
our student information data system.
    So we knew who they were. We knew their addresses. We knew 
whether they needed special education services, English 
language learner services, whether they were free and reduced 
lunch. And that allowed us as a system to do a much better job 
making sure those kids were getting the services they needed.
    If you don't know that, if you have an authorizer that 
doesn't have that information, it is very difficult to address 
the concerns you are concerned about. So we want to see a much 
better job of authorizers doing that data collection.
    Mr. Polis. The gentlelady's time has expired.
    The chair recognizes the gentlelady from California, Ms. 
Woolsey, for 3 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I think we have more time than you realize. I mean, once 
the bells ring, we have got 20 minutes.
    Mr. Polis. We will absolutely go back for a second round 
after everybody has completed, if time permits.
    Ms. Woolsey. So I want to thank the witnesses and 
congratulate the charter movement for fulfilling what I 
believed was to be your mission in 1993 when I was sworn in 
here and became a member of this committee.
    And that mission was to prove that--to educators and to 
authorizers that in many, many cases there--new and better 
education practices work.
    So I have been on this committee, as I said, for 18 years. 
And over that time, the charter movement was born and grew. And 
later, No Child Left Behind was passed. And now we are 
preparing to reauthorize the Elementary and Secondary Education 
Act.
    So back to the charter and your speech--your presentations 
today. You have shown us that absolutely more individual lesson 
plans, parental involvement, more autonomy, more freedom--all 
of that works, including chess or dance. Of course it works.
    You have provided members of this committee some very 
proven successful practices to the public education system.
    So I want to ask you, how are we going to integrate this 
into elementary-secondary education reauthorization without 
splitting our public education system down the middle? You have 
shown us that there are better practices. The public education 
system has better practices when it comes to English learners, 
to special needs kids, to homeless.
    How are we going to marry that together? Because I am 
scared to death that we are going to start marching down a path 
where we have two public education systems, one for those that 
are better off, and one for those in need. And I am not going 
to be satisfied with that. That will not work.
    You have proven to us that if we integrate new and better 
ways into the public education system, we will be able to 
educate all children, and all children--in a world so they can 
compete worldwide.
    So that is my question to you. Does anybody want--have time 
to respond?
    Ms. Young. Absolutely. In Los Angeles, they made a historic 
vote yesterday that didn't make everybody in the charter school 
movement happy, but they voted to give several dozen of their 
campuses to internal staff teams that create great schools to 
charter schools to create schools.
    And by bringing the charter school movement into 
competition but also collaboration with district families and 
teams, they began that integration. And I think that is going 
to be one of the ways that other school districts can focus on 
this.
    Mr. Polis. The gentlelady's time has expired.
    The chair recognizes the gentleman from Illinois, Mr. Hare, 
for 3 minutes.
    Mr. Hare. Thank you, Mr. Chairman.
    Dr. Moskowitz, let me just give you my opinion here. I have 
heard you mention Soviet-style twice in your testimony. While I 
appreciate the fact that you are genuinely concerned and 
obviously into the thing, I think the rhetoric on that might 
get toned down a bit.
    I mean, I think we are all in this to try to make sure--but 
you know, the Soviet-style, I think, to be honest with you, 
troubles me greatly.
    Let me just ask you--the panel quickly--I represent West 
Central Illinois, a lot of rural area. And my concern is the 
rural schools face a lot of unique challenges, such as limited 
resources, small student body populations, geographic 
isolation.
    And I am concerned that promoting charters in rural America 
may not be--may be unrealistic. My question for this panel is 
can charter school models be replicated in rural communities. 
If they can be--or outside of urban areas, and if they can, can 
you explain to me how you can do that?
    Ms. Young. Absolutely. There are wonderful replication 
models of charter schools throughout the country, and a lot of 
those charter schools are using a combination of students 
coming to a particular campus to have some of their classes and 
then doing some of the work from home in online programs.
    And this is happening in rural areas throughout the 
country, and it makes it possible for students who would 
otherwise ride a school bus an hour and a half each way to 
school to instead come to the school site 2 or 3 days a week 
but then have the other days to use that time more productively 
by doing their course work online.
    And so we are seeing that growing throughout the country. 
It is also the case that there are school districts that have 
only one or two schools in them that are choosing to make a 
charter school and a non-charter school in that school district 
so that they can have the experimentation of both and have more 
options for kids.
    Mr. Hare. (OFF MIKE)
    Ms. Young. It is by agreement with the school district to 
make sure that that funding is available.
    Mr. Hare. (OFF MIKE)
    Ms. Ahearn. Certainly, and I think also we are working on 
the topic of special education and virtual schools at this 
moment, and it is really important that a lot of innovation has 
been grown out of the virtual movement, moving toward virtual 
schools, and delivery of special education services as well. So 
it can work.
    Mr. Richmond. I will add, in 10 seconds, if you--you know, 
Wisconsin actually has had many small school districts adopt 
and grow charter schools--dozens actually embraced by 
superintendents in Wisconsin--as a means of doing what you are 
interested in.
    Mr. Polis. The gentleman's time has expired.
    The chair recognizes the gentleman from Pennsylvania, Mr. 
Tierney, for 3 minutes.
    Mr. Tierney. Okay. I haven't moved. I am still from 
Massachusetts, so we----
    Mr. Polis. Yes, you are. The chair stands corrected.
    Mr. Tierney. Thank you.
    Look, I think we have good public schools and bad public 
schools. We have good charter schools and bad charter schools. 
And the good public schools do a lot of the things that the 
good charter schools do. Some do longer days, longer school 
years, you know, and all of that stuff.
    So I mean, I think that Ms. Woolsey gave you a lot of 
credit, but I think it should be shared, that there are good 
public schools in a lot of different places.
    But in the aggregate, the reports that I am familiar with 
shows that charter schools perform slightly below the public 
schools. In the aggregate, charter students demonstrate 
slightly lower proficiency on national tests. And in the 
aggregate, a slightly higher percentage of charters fail to 
make annual yearly progress.
    So as I say, some are low performing and, as one of our 
witnesses said, we have some that are low performing, but they 
are allowed to stay open for various reasons. Well, that is the 
same thing with public schools.
    And we have some schools that sometimes are approved, and 
now they are here, and we have to do something about that. 
Well, that is the same thing with public schools.
    So the concern that I have here is we are recreating the 
wheel, that we know what works. In the last panel it 
apparently--by the committee here to have duplicate hearings on 
charter schools on that--is that some things work.
    We have now done a lot of research and studying. We know 
what works. The thing I am concerned is why we are trying to 
make it work in one area instead of not just making it work in 
one area but trying to bifurcate it off of there.
    So you know, now they know that some don't work, so they 
want help for the 3 percent of students that are in charters to 
sort of replicate what is right and move away from what is 
wrong.
    There is nothing in my observation that stops local 
education agencies and states from doing what is right, except 
maybe we don't have enough public pressure, and we are not 
moving through on that.
    We can hire, promote, retain principals and teachers that 
operate the way we want them to. We could support them. We 
could even work with teachers to do peer review and weed out 
the ones that aren't doing as well as we want, or mentor or 
train the ones that have to do better and concentrate on that 
part.
    But I wonder, what could states and local education 
agencies do with the $310 million that the president proposes 
for charter schools. Instead of taking it, you know, and 
putting it there, instead of adding it and doing the things 
that are right in the existing system, I think it would make a 
world of distance--difference.
    And I wonder why it is in charter schools we will support 
public money for bricks and mortars, where historically we have 
never done that for the public schools, and wouldn't those 
public schools have liked to have had that opportunity.
    So I just have that question going through my mind--is it 
would--that this is not actually helping but maybe just sort of 
bleeding it out and taking the concentration away from what we 
need to do for all children, not just 3 percent.
    I want to leave you all with a question and ask you, if you 
would, and if the chair would ask you, to submit it in writing 
to me. It has been mentioned that mandates and regulations are 
something that charter schools have to be shielded from.
    And that is why, you know, you want to do--so if you would 
provide to the committee so that I can look at it as well as 
the other members what alleged mandates and regulations do you 
say charter schools should be shielded from, and that would 
assist us, I think, in our work.
    I yield back. Thank you.
    Mr. Polis. Thank you. The gentleman's time has expired.
    The chair recognizes the gentlelady from Nevada, Ms. Titus, 
for 3 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    I would like to continue this same line of thought. Nevada 
has had a mixed experience with charter schools. So we have 
what we call empowerment schools. Empowerment schools are, in 
many ways, similar to charter schools. They have a lot of 
autonomy in exchange for accountability in governance, 
budgeting, staffing, instruction and time.
    But they operate on extended days, extended years, more 
flexibility in hiring, more flexibility in use of their per-
student allocation of funding. And they have proven to--shown 
that they do better.
    The way they are different, though, is rather than focusing 
on one particular population, they still remain neighborhood 
schools, so they serve all the children in the neighborhood. 
They just serve them better.
    And they are accountable to the school district, as opposed 
to being approved by the state board of education, which makes 
them really more centered in that community, with parent 
involvement and teachers and principals.
    I just wonder how you could argue that charter schools are 
really a better way to go than, say, empowerment schools that 
would, indeed, use the funding that Mr. Tierney addressed in a 
fairer kind of broader way.
    Ms. Young. One of the ways is that this 75-page document is 
the California charter school law, and most of the charter 
school laws in the country are that small compared to, say, the 
average state ed code, which is about 2,000 pages.
    And that gives charter schools the opportunity to really 
tailor their program to the students they serve. For example, 
if a charter school wants to have specialized programs, or 
teachers that are trained in a particular rigorous area that 
matches the needs of the kids that wouldn't otherwise belong in 
a school because of the education code, charter schools can do 
that.
    And so one of the things that traditional public schools 
can do is get the same kind of waivers as charter schools get 
if they want to improve their programs, and that is one of the 
ways we are seeing that charter school law influenced 
traditional school districts, because now, more and more, 
traditional school districts are asking for waivers from the 
regulations that keep them from being able to do charter-
school-like things.
    Ms. Titus. And I think that is accurate, and that is why I 
wonder why we don't spread that money across, allowing more of 
those schools to become empowerment schools rather than just 
centralizing it with charter schools.
    Ms. Young. Well, I think the key reason is not--I don't 
think that it is one or the other. It needs to be both. But 
when you have an empowerment school, in terms of make it 
sustainable and to make it a high-quality school, it needs to 
have at least solid independent governance. It needs to be 
judged based on student outcomes.
    The leadership of the school needs to have the ability to 
manage their own budget and to hire and fire the people who 
work in the school. And if it has all of those things, and 
freedom from the regulations that--them away, it will be 
successful.
    Mr. Polis. The gentlelady's time has expired.
    The chair would also like to thank Dr. Moskowitz, who has 
to depart, as will the rest of us shortly.
    With that, the chair recognizes the gentlelady from New 
York, Ms. Clarke, for 3 minutes.
    Ms. Clarke. Thank you, Mr. Chairman.
    It is good seeing you, Dr. Moskowitz. Dr. Moskowitz and I 
served on the New York City council together, so it is good to 
see her in her new capacity here in Washington.
    Let me just raise a couple of issues about the charter 
schools as they were established in the early 1990s. It was 
sort of our thinking that we could use these as incubators for 
innovative educational ideas and new teaching methods and that 
ultimately these new ideas and teaching methods would be shared 
with and scaled up for dissemination in the wider public school 
community.
    In New York City, this is not taking place. And I am a bit 
concerned, because I think you have heard a lot of the concerns 
coming from my colleagues about a bifurcated public school 
system--there is a public non-charter school system, and there 
is the public school system. And it is as though never the 
twain shall meet.
    I know that in speaking with a number of the chartered 
schools in my district, there is never a conversation in our 
governance structure with the city's department of education 
where charter school administrators actually meet with the 
regular public school administrators to talk about what their 
experiences have been.
    I am just a bit concerned about where we get to the tipping 
point and what is the end game here. And I don't know whether 
that has been a conversation in the charter school movement, 
but I think it is a very valid one.
    And when people talk about cherry-picking, let me just 
explain how that happens. There are some parents who are in the 
know. There are some parents who constantly interact with other 
folks and navigate the system very well.
    Those parents are the parents who always look after their 
children's education and they are always going to find the very 
best educational system for their children. They tend to be a 
very slim part of a large community of parents that never know 
what is going on.
    And what I have found is that a lot of the parents who 
could best benefit from the charter school movement are never 
informed, never get the message. So you do get this 
perpetuation of a cherry-picking phenomenon, whether you intend 
to or not.
    And I think we really need to address that. In a huge 
public school system like New York City's it is becoming very 
contentious. So I would just like to get some feedback from you 
about how we get to this tipping point or at least this 
reconciliation so that when we talk about doing ESEA we know 
what direction we are heading in and we are not heading for a 
collision course.
    Mr. Richmond. I will try to speak to that very quickly. I 
think you are right, there has been less direct sharing from 
school to school between charters and district schools than 
people expected. I think that is an accurate assessment. People 
expected more, and there is less happening than we want.
    But where we have seen it is on a higher level around 
standards, better teacher recruiting, better teacher training, 
better assessments--policy level those lessons have carried 
over into the rest of public education--reauthorization of ESEA 
now.
    Mr. Polis. The gentlelady's time has expired.
    The chair recognizes the gentleman from New Jersey, Mr. 
Payne, for 3 minutes, our final questioner.
    Mr. Payne. Thank you very much.
    Sorry that I was unable to hear the testimony, but it is 
something that I am very interested in. As a former public 
school teacher, I certainly have a strong interest in 
education. And I do think that the charter school movement have 
really provided some good results.
    We have North Star Academy in my district that has done 
very well. It is--was visited by the Secretary of Education, 
Duncan.
    I just would like to reiterate what the gentlelady from New 
York says, that, you know, your job is not to worry about those 
students who are not in the charter movement. I mean, you are 
in the charter movement and therefore your obligation is to 
your movement and moving forward with it.
    However, it is a system, as it has been indicated by the 
gentlelady from New York, that it takes, first of all, a parent 
who is--has initiative, so the argument could be, ``Well, why 
should you penalize children of parents with initiative?'' Very 
good argument.
    The thing that we have in our state is that, you know, once 
a child is in, then the lottery allows them to have siblings. 
So you got the parent who has a lot of initiative. She gets the 
first child in. The other siblings automatically qualify 
because that is the way they do it in New Jersey.
    And once again, the expulsion from charter schools 
certainly is high. The number of charter school children that 
have been put out and back into the public school system is 
definitely an indication that, once again, we have a--sort of a 
select--you have to earn the right to stay, whereas public 
schools--by law, you must stay.
    And so I think that what you are doing is fine. I would 
just hope that--matter of fact, in New Jersey, you can't have 
more than 15 kids in a class. I wish that were for every 
school.
    So I am not knocking and certainly complimenting the 
success, because we have them in my town. I am just basically 
concerned about the others, and that is, like I said, not your 
worry. That is the public schools' problem, and they should 
deal with it.
    But I do see more of a segregated type of a system, and I 
just hate to think that we are getting back to 1896 and Plessy 
v. Ferguson of equal but separate is okay.
    I think my 3 minutes are up. Yield back.
    Mr. Polis. Thank the gentleman.
    I would like to thank all of our panelists today. We deeply 
appreciate you spending your time educating this committee.
    I would like to thank the many progressive and civil rights 
organizations that support the All-STAR bill, including the 
Center for American Progress, the Thomas Fordham Foundation, 
the Citizens' Commission on Civil Rights, the United Negro 
College Fund, the National Council of La Raza, and the 
Education Quality Project, as well as the Black Alliance for 
Educational Options, for helping to support this bill.
    And thank you for educating our committee about a bill that 
can make sure that charter schools have strategies to serve 
more at-risk students, can help desegregate our schools by 
looking at cooperative agreements and transportation agreements 
to help provide more diversity in our charter schools, and a 
bill that helps replicate successful charter schools as well as 
ensuring that there are strategies to close or intervene in 
unsuccessful charter schools.
    We can all hope that this can move the movement forward and 
help ensure that the promise of hope and opportunity is a real 
one for more American families.
    Without objections, members will have 14 days to submit 
additional materials or questions for the hearing record.
    And without objection, the hearing is adjourned.
    [The statement of Mr. Ehlers follows:]

   Prepared Statement of Hon. Vernon J. Ehlers, a Representative in 
                  Congress From the State of Michigan

    Chairman Miller and Senior Republican Kline, I thank you for 
holding this important hearing on maintaining quality in charter 
schools.
    I also thank Representative Jared Polis for his work on the All 
Students Achieving through Reform Act of 2009, or the All-Stars Act. I 
was very pleased to join him as an original cosponsor.
    Throughout my career, both in Lansing and in Washington, I have 
been an ardent supporter of good public and private schools. I strongly 
believe that we should work to improve our federal education laws to 
incentivize more effective schools and options for parents and 
students.
    Charter schools provide Michigan families with an educational 
choice. Having a choice of quality schools is very important for 
students' education and for our communities. In fact, I have noticed 
that parents tend to be quite involved in their child's education when 
they choose to live near the school they want their child to attend.
    Developing good schools takes work. Officials in my state have 
spent considerable time and effort in ensuring that public charter 
schools are effective. According to the Center for Education Reform, 
Michigan's charter school laws rank the 6th strongest in the county. In 
my state, no other public schools are scrutinized like charters are. 
Charter authorizers (often state universities) have large staffs that 
monitor the schools and ensure compliance with lengthy, written 
performance contracts. Charters keep their contracts if they are 
academically and fiscally sound, and lose them if they are not. Even 
more importantly, charter schools are held accountable by parents who 
are there by choice and can ultimately ``vote with their feet'' by 
choosing another school if they are not satisfied.
    While there are approximately 240 public charter schools in 
Michigan, very few serve the high school grades. In 2008, a new public 
high school charter opened in Grand Rapids, and served 150 students 
with a waiting list within its first year of operation.
    The All-Stars Act would provide federal grant funds to replicate 
successful charter schools. It also would ensure high levels of charter 
school authorizer reporting and accountability.
    I look forward to hearing from our expert witnesses today, and hope 
that other members of this Committee will join me in supporting the 
All-Stars Act.
                                 ______
                                 
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
